<html>
<title> - COMBATING ANTI-SEMITISM: PROTECTING HUMAN RIGHTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                        COMBATING ANTI-SEMITISM:
                        PROTECTING HUMAN RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

                           Serial No. 111-87

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
  56-053PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
              Jerry Haldeman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Hannah Rosenthal, Special Envoy to Monitor and Combat Anti-
  Semitism, U.S. Department of State.............................     8
Rabbi Abraham Cooper, Associate Dean, Simon Wiesenthal Center....    23
Mr. Kenneth Jacobson, Deputy National Director, Anti-Defamation 
  League.........................................................    28
Rabbi Andrew Baker, Director of International Jewish Affairs, 
  American Jewish Committee......................................    60
Ms. Elisa Massimino, President and Chief Executive Officer, Human 
  Rights First...................................................    69

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     3
Ms. Hannah Rosenthal: Prepared statement.........................    11
Rabbi Abraham Cooper: Prepared statement.........................    26
Mr. Kenneth Jacobson: Prepared statement.........................    30
Rabbi Andrew Baker: Prepared statement...........................    63
Ms. Elisa Massimino: Prepared statement..........................    71

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101

 
            COMBATING ANTI-SEMITISM: PROTECTING HUMAN RIGHTS

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:14 p.m. in 
room 2172, Rayburn House Office Building, the Honorable Russ 
Carnahan, (chairman of the subcommittee) presiding.
    Mr. Carnahan. I want to call to order this Subcommittee on 
International Organizations, Human Rights<greek-l>, deg. and 
Oversight, and the hearing today on combating anti-Semitism and 
protecting human rights, and we will start with some opening 
statements from the members, and we will get onto our two 
panels.
    But we do have some special guests with us today. I want to 
recognize Brian Grim from the Pew Research for being here and 
thank you, and also we have some special students with us. We 
have, my understanding, 34 fifth graders, they are here from 
the Jewish Primary Day School of our nation's capitol, and why 
don't you all stand for us. Welcome, and I understand you are 
studying government and also this week studying the Holocaust. 
So welcome, and we are happy to have you here. Let us give them 
a hand.
    [Applause.]
    This past Sunday, April 11, nearly 1,000 St. Louisans, my 
home city, attended the Shalom Kneseth Israel Synagogue to 
commensurate Yom HaShoah, or Holocaust for Memories Day. The 
event was hosted by the St. Louis Holocaust Museum and Learning 
Center.
    After World War II, about 300 Holocaust survivors came to 
St. Louis. Today fewer than 150 survivors remain. Each year 
this commemoration takes on more urgency as fewer survivors are 
able to recount the terrible tragedies that they witnessed. 
While Holocaust survivors are still among us, we must 
strengthen efforts to speak out and combat Holocaust denial.
    Today, we have with us Ms. Hannah Rosenthal, special envoy 
to monitor and combat anti-Semitism. I understand that her 
father is also a Holocaust survivor. We are honored to have her 
here today to talk about the Obama administration's efforts to 
combat Holocaust denial and other forms of hateful, derogatory 
anti-Semitism.
    Anti-Semitism is not just rhetoric. It is a violation of 
human rights. Article 18 of the Universal Declaration of Human 
Rights, signed in 1948 under the Harry Truman administration, 
says,

        ``Everyone has a right to freedom of thought, conscious 
        and religion, and this right includes freedom to change 
        his religion or belief and free him, either alone or in 
        community with others, and in public or private to 
        manifest his religion or belief in teaching, practice, 
        worship, and observance.''

    The incidents of anti-Semitism are on the rise. According 
to Abraham Foxman, national director of the Anti-Defamation 
League, 2009 was, ``. . .probably the worst year of global 
anti-Semitism since the Second World War.'' There has been no 
country, no city, no continent that has not witnessed anti-
Semitism, and we do not talk even about thousands and thousands 
of Web sites, millions upon millions of hits to reinforce anti-
Semitism.
    According to the Roth Institute for the Study of 
Contemporary Anti-Semitism and Racism at Tel Aviv University, 
violent acts against Jews worldwide more than doubled last 
year. In 2009, there were 1,129 anti-Semitic incidents. This 
figure is up from 559 incidents the previous year. It is the 
highest since the study began more than 20 years ago.
    I would like to submit for the record a new report on 
rising anti-Semitism just released for the hearing today from 
the Pew Forum on Religion and Politics. Author Brian Grim, who 
I mentioned in the beginning, notes that although the global 
Jewish population takes up approximately .2 percent of the 
world's population, governmental or societal harassment of Jews 
was reported in 55 countries, 28 percent during the 2-year 
period under examination.
    Today, we will hear about efforts to combat anti-Semitism. 
I am interested in learning about the Obama administration's 
effort to reduce anti-Semitism and the stigma and 
misconceptions about other faith through their interfaith 
dialogue. I would like to know how other measures our panelists 
are going to recommend to be more effective to enforce measures 
that combat anti-Semitism.
    I would also like to hear more about the enforcement of 
laws to address Holocaust area restitution issues. For example, 
the Government of Spain has refused to return a painting 
expropriated by the Nazis to the owners, heirs, even though 
Spain is a signatory to the Terezin Declaration affirming its 
commitment to return looted art. Likewise, Lithuania has yet to 
enact a law to return communal property while Poland has yet to 
enact a law returning private property to Jewish owners.
    We are also interested to hearing about efforts through 
international organizations to combat anti-Semitism and what 
can be done through the U.N., the Organization for Cooperation 
and Security in Europe and other international organizations.
    Last May, the United States decided to join the U.N. Human 
Rights Council, reform it from within and use its voice and 
vote to focus attention on the worst abusers of human rights 
and away from an excessive focus on Israel. I am also 
particularly interested to learn about the status of anti-
Semitism on Facebook, Twitter and YouTube. These media can be 
tools for liberation and freedom of expression, as we have seen 
in Iran and Venezuela, but they can also be used as tools to 
spread hateful and inciteful speech and dangerous ideas.
    I want to now introduce our first witness. Well, actually I 
am not going to do that right now. I am going to turn to our 
ranking member, Mr. Rohrabacher, recognize him for 5 minutes 
for his opening remarks as well.
    [The prepared statement of Mr. Carnahan 
follows:]Carnahan statement 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rohrabacher. Thank you, Mr. Chairman. You will get it 
down right. He is our new chairman. And Mr. Chairman, let me 
congratulate you as a new chairman on deciding that this would 
be one of the first hearings that you would call for an 
organize. This is a vitally important issue for us, not only to 
understand where anti-Semitism stands in the world today, but 
to get to understand some of the root causes for anti-Semitism 
which has plagued this planet for thousands of years.
    I am also very grateful to Mr. Chris Smith, who is to my 
left, and let me just note that he has been a champion on this 
issue and a role model for myself in terms of compassion and 
responsibility on these kind of issues, and I appreciate your 
leadership too, Mr. Smith.
    Let us take a note about anti-Semitism, and just start this 
off by suggesting that I do not believe that the root cause for 
the expansion of anti-Semitism is the Palestinian-Israeli 
conflict. This notion is something that I think provides too 
many people an easy out in terms of understanding what anti-
Semitism is all about, and it is not because the Israeli-
Palestinian conflict that you have such anti-Western attitudes 
among some, if not many, Muslims. The fact is that there has 
been an anti-Western element to the Islamic societies over the 
centuries, and we have seen this, and there have been people, 
and today manifests itself quite often in the form of anti-
Semitism, but it goes much deeper than just a hatred of the 
Jews.
    Let us note that we have a situation here in the United 
States where we have anti-semites who now have sort of again 
focused on the Israeli-Palestinian conflict as a means to 
promote their anti-Semitism, yet anti-Semitism existed among 
certain elements in the United States long before there was 
ever an effort by people to have a rebuilding of the nation of 
Israel.
    So we need to understand some of these fundamentals if we 
are going to get at it. Remember we had an anti-Semitic 
terrorist movement in the United States that was very strong 
for about 100 years, if not 150 years, but about 100 years. It 
was called the Ku Klux Klan, and they marched around and with 
their crosses and talked about Christianity, and yes, not just 
repressing black people, but also anti-Semitism was a major 
part of their ideology.
    So, today as we look at this issue, and I am looking 
forward to hearing the testimony, let us note some of the root 
causes for anti-Semitism and try to go beyond simply blaming 
the Palestinian-Israeli conflict, but we do know that with that 
in mind there is an unholy alliance today among anti-semites 
throughout the world and Muslim extremists who they themselves 
hate, not just Jews, but hate the Western way of civilization, 
that this unholy alliance threatens bloodshed and threatens 
violence not just aimed at Jews but aimed at all Western 
Civilization and all those who would uphold those standards of 
human rights that we hold dear.
    So, Mr. Chairman, today it behooves us to get a better 
understanding of this issue and make sure that the American 
people have a deeper appreciation of the depth of the challenge 
that we face in trying to guard against this evil force in the 
world. Thank you very much, Mr. Chairman.
    Mr. Carnahan. Thank you, Mr. Rohrabacher, and for your 
leadership on this committee. The issues that you have 
championed, and this is a good example of one that has brought 
bipartisan support, and I am also especially pleased, as you 
mentioned, to be joined by our colleague on the full committee 
Chris Smith of New Jersey who is one of the great champions of 
human rights in this Congress and I want to recognize him for 5 
minutes as well.
    Mr. Smith. Mr. Chairman, thank you very much for extending 
the courtesy to join you on the committee. Thank you for 
convening this. It is one of the first hearing and it shows 
your priority, which is an extremely important one, combating 
anti-Semitism, and I thank you for that, and I want to thank 
Mr. Rohrabacher, the ranking member, for his kind remarks but 
also for his years, decades of championing human rights all 
over the world, including those rights against Jews all over 
the world. I want to thank him for that.
    Let me just say you made a very good point in your opening 
about the idea of differences of opinion with the Palestinians. 
Natan Sharansky has over and over again pointed out that 
disagreeing with policies that may be promulgated or pushed by 
the Knesset or by whoever the existing prime minister might be 
is just the latest cover on the part of anti-semites to attack, 
to demonize, to de-legitimize Israel, and especially Jews, it 
comes from the far right, it comes from the far left, it comes 
from the skinheads. There is a large collection, regrettably, 
of bigots who hate Jews simply because they are Jews, and now 
they use the pretext of disagreeing with the Israeli state as a 
means of promoting their hatred.
    In the first decade of the twenty-first century more than 
any other time since the dark days of World War II Jewish 
communities worldwide have faced violent attacks against 
synagogues, Jewish cultural sites, cemeteries and individuals. 
It is an ugly reality that we know from experience it won't go 
away by ignoring it, a sobering reminder that our societies are 
filled with a collection of bigots who hate Jews. These bigots 
must be fought and they must be defeated.
    I look out at the audience and I see Mark Levin, who when 
he was in his early career working with the NCSJ, now executive 
director, I had given a speech, Mr. Chairman, on the floor, the 
Hamilton Fish had called us together for a special order in 
1981, and Mark was sitting in the gallery, and after I finished 
the very unremarkable speech came down and said you ought to go 
to Moscow, Leningrad with the NCSJ, which I did in January 
1982, and certainly that was my true eye opener about what 
state-sponsored anti-Semitism hate looks like, and that, of 
course, was the Soviet style.
    Unfortunately, we have seen over the years that it has 
gotten privatized in some cases. I chaired a hearing back in 
1985, it was the first hearing ever as far as we know on this 
rising tide of anti-Semitism, and I remember several of our 
witnesses, some of whom are testifying today--just shows they 
are long stayers in this battle--talked about the privatizing 
of it, where the countries in question look to stance while 
those who harbor these ill thoughts and this pernicious form of 
hate would be somewhat have a free hand to do whatever they 
wanted against Jews, and that certainly is a serious problem 
although we see many states do, like Iran, practice this in a 
very systematic way.
    You know, I believe one of the most important things we can 
do in fighting anti-Semitism is to keep reliable records on 
anti-Semitic hate crimes. Surely a surgeon can't remove a 
cancer or prescribe a course of treatment without documenting 
the nature, scope, and extent of the disease, and anti-Semitism 
is a vicious disease.
    This is why in 2004, Mr. Chairman, as prime House sponsor 
of the Global Anti-Semitism Review Act, I offered an amendment 
to the already passed Senate bill which just called for a 1-
year look at anti-Semitic hate, and that amendment created the 
State Department office to monitor and combat anti-Semitism, 
and the position of special envoy for monitoring and combating 
anti-Semitism, the position occupied by our distinguished 
witness who we will present in just a moment.
    It is also why since 2002 I and other members of the 
Helsinki Commission have taken the lead within the 
Parliamentary Assembly for the OSCE, and then with the OSCE 
itself in trying to get the 56 participating states to focus, I 
know some who are here, Andy Baker, who is now our special 
representative in the OSCE, fighting to try to make other 
countries, and our own, aware of what our obligations are as 
governments to fight this. We worked within the OSCPA and of 
course the OSCE to make that all happen.
    I also believe that another key to combating anti-Semitism 
is attention to policing and prosecution issues. Police and 
prosecutors must be trained on how to recognize and respond to 
anti-Semitic hate crimes. That is why within the 
Interparliamentary Coalition Combating Anti-Semitism, which I 
serve in the steering committee, I continue, along with the 
other members of that committee, to push for policing issues. 
If you get the police right, and when something occurs in any 
of our countries, it even happened in my own state, Mr. 
Chairman, where in one of our municipalities swastikas were 
painted on gravestones and they just chalked it off as just, 
you know, this some hooliganism.
    So when we take on the French and say you have got to 
realize that that is a sign of hate, it also is equally hateful 
when it happens within our own borders.
    We must, and I will conclude on this and would ask that my 
full statement be made part of the record, must never give into 
fatigue or indifference. You know, we cannot get compassion and 
fatigue. We cannot say we have been there, we have done that, 
why don't other people get it. Anti-Semitism remains what it 
has always been--a unique evil, a distinct form of intolerance, 
the oldest form of religious bigotry and a malignant disease of 
the heart that has often led to murder. It continues to 
threaten our Jewish brothers and sisters throughout the world, 
so we must redouble our efforts in the fight against this 
scourge of anti-Semitism.
    Thanks again, Mr. Chairman, and I yield back.
    Mr. Carnahan. I want to thank the gentleman from New 
Jersey, and without objection his full statement will be placed 
in the record.
    I just got a text. We think we may have votes in 20 minutes 
to half an hour so we are hoping we can get through our first 
panel, and do votes, and then return for our second panel.
    I want to introduce the administration's witness for today, 
Ms. Hannah Rosenthal. She is the special envoy to monitor and 
combat anti--Semitism for the Bureau of Democracy, Human 
Rights, and Labor of the State Department. Her father was a 
rabbi and Holocaust survivor. She has also studied to become a 
rabbi.
    From 2005 to 2008, Ms. Rosenthal was executive director of 
the Chicago Foundation for Women, and prior to that she was 
executive director of the Jewish Council for Public Affairs for 
5 years. Ms. Rosenthal served as midwest regional director for 
the U.S. Department of Health and Human Services during the 
Clinton administration, and has helped lead the Wisconsin 
Clinton-Gore Campaign in 1992 and 1996.
    Ms. Rosenthal attended graduate school for rabbinical 
studies at Hebrew Union College in Jerusalem and L.A. and holds 
a bachelor's degree in religion from the University of 
Wisconsin.
    Ms. Rosenthal, welcome. I understand this is your first 
appearance before a committee since your new position, so 
especially we want to welcome you today. Please proceed and we 
want to recognize you for 5 minutes, and then we will get to 
questions.

STATEMENT OF MS. HANNAH ROSENTHAL, SPECIAL ENVOY TO MONITOR AND 
         COMBAT ANTI-SEMITISM, U.S. DEPARTMENT OF STATE

    Ms. Rosenthal. Thank you so much. Chairman Carnahan, 
Ranking Member Rohrabacher, and members of the subcommittee, 
again this is my first appearance before you and I thank you 
for the invitation to testify, and I would ask that my full 
written statement be submitted for the record.
    Mr. Carnahan. Without objection.
    Ms. Rosenthal. The role of the special envoy and my office 
was created by the Global Anti-Semitism Review Act of 2004 and 
came out of this committee with your leadership, Congressman 
Smith. I recognize the great leadership role this committee has 
played and that your attention is key to this important human 
rights issue. Regrettably, the need for that attention has not 
diminished.
    I am pleased to be here today also with Kenny Jacobson of 
the Anti-Defamation League, Rabbi Andy Baker of the American 
Jewish Committee, Elisa Massimino of the Human Rights First, 
and Rabbi Abe Cooper from the Simon Wiesenthal Center. Their 
work is absolutely critical, and I thank them for their 
contributions, and I look forward to working with them even 
more closely as we move forward.
    Last Sunday was International Holocaust Remembrance Day 
where millions across the world honored the memories of the 
victims of the largest genocide in history. As mentioned, I am 
the child of a Holocaust survivor, the only survivor of his 
family. I have no grandparents, I have no aunts and uncles, no 
cousins. So fighting anti-Semitism is something very personal 
to me.
    When I was old enough to somewhat understand what my father 
endured as the only member of this family to survive, I asked 
him how could he go on during the Holocaust, and he responded, 
``I survived to have you, Hannah,'' and those words he took the 
mantle off his shoulders and put it squarely on mine, and I 
have dedicated my life to eradicating anti-Semitism and 
intolerance with a sense of urgency and passion that only my 
father could give me.
    On January 27th, I walked, voluntarily, through the gates 
of Auschwitz under the infamous ``Arbeit Macht Frei'' sign as a 
member of the official U.S. delegation to mark the sixty-fifth 
anniversary of the liberation of Auschwitz. In his remarks, 
President Obama eloquently reminded us that we are here as 
survivors not only to bear witness but to bear a burden.
    Anti-Semitism occurs on every continent. This year the 
Department of State's International Religious Freedom Report 
and Country Reports on Human Rights Practices revealed an 
increasing trend in incidents of anti-Semitism cited in 74 
countries, and the 2009 Pew Global Attitudes Project Survey 
showed very high levels of unfavorable views of Jews and 
Muslims globally. All of this together is a very troubling 
trend.
    The outrageous statements by Iranian President Ahmadinejad 
that the Holocaust never occurred and that Israel and all Jews 
should be wiped off the world map are more than anti-Israel 
rhetoric. It is not land that would be drive into the sea, but 
Jewish people. The United States strongly calls for this 
destruction of Israel, and finds reprehensible this explicit 
incitement to commit the most extreme violence.
    In recent months, Europe has also seen some disturbing acts 
of anti-Semitism. In Poland, thieves stole the ``Arbeit Macht 
Frei'' sign at the entrance to Auschwitz. The sign was found a 
few days later cut into three pieces. The alleged ring leader, 
a Swedish neo-Nazi, was extradited to Poland a few days ago to 
stand trial. In Greece, two arson attacks damaged the historic 
Etz-Hayyim Synagogue, the last Jewish monument on Crete. Greek 
officials condemned the attacks with unprecedented open letter 
to the people of Greece.
    Anti-Israel statements are increasingly the vehicle for 
anti-Semitism, often couched in demonstrations, cartoons and 
speech against the State of Israel. The legitimate role of 
public expression criticizing government policy can quickly 
cross over into hateful racial slurs and denunciations of the 
Jewish people themselves. This is unacceptable. We believe 
criticism of Israel crosses the line into anti-Semitism when, 
for example, it applies a double standard or compares the 
policy of Israel to that of the Nazis, or holds all Jews 
responsible collectively for actions of the State of Israel, or 
denies that Israel has a right to exist.
    Natan Sharansky identified the three Ds that cross the 
line. It is anti-Semitic when Israel is demonized, held to a 
different standard or delegitimized.
    Now let me describe briefly how my office and the Obama 
administration are fighting anti-Semitism. As my title 
indicates, we vigilantly monitor anti-Semitic acts and 
discourse. At the State Department, I work with all regional 
bureaus, the bureau multilateral efforts, as well as our 
diplomatic missions abroad. I am forging partnerships with key 
offices across the U.S. Government, including the National 
Security Council. I am also building on partnerships we have 
with scholars and nongovernmental organizations who help us 
document abuses and provide insights and ideas.
    But combating anti-Semitism calls for more than monitoring. 
Bilaterally we encourage government to confront anti-Semitism 
within their own societies and reach out to their own Jewish 
communities. We also encourage partnership in international 
institutions. The Organization for Security and Cooperation in 
Europe has been a global pioneer in this regard and we play a 
leading role in their efforts against anti-Semitism. We 
strongly support the work of Rabbi Andrew Baker, the OSCE 
special representative on combating anti-Semitism.
    This year Kazakhstan as OSCE chair will host a conference 
on tolerance and nondiscrimination at the end of June which I 
will attend.
    At the United Nations anti-Semitism and anti-Israel 
sentiment often overlap. United Nations' bodies have long shown 
a bias toward condemning Israel at a rate much higher than any 
other country. We continue to press for Israel to be treated 
fairly at the United Nations and other international 
organizations. We are pressing the U.N. Human Rights Council to 
live up to its mandate which encompasses treating Israel by the 
same standards applied to other countries and combating anti-
Semitism.
    In addition to diplomacy, we advance civil discourse. We 
promote public discussion on new forms of anti-Semitism, how to 
recognize it, how to combat it. We don't just confront 
intolerance, we are actively promoting tolerance. We are 
educating opinion leaders and policymakers how increasing 
levels of anti-Semitism are insidiously entering mainstream 
media and public settings.
    Interfaith engagement reenforces religious tolerance. It is 
easy to criticize and even demonize people you have never met. 
Building relationships among different ethnic and religious 
communities are central to tearing down walls of hostility. We 
are actively engaging faith leaders to reenforce the importance 
of pluralism and protection of all religious minorities. Next 
week I will travel to Lithuania, Ukraine and Tunisia to advance 
these efforts.
    This administration, the Department of State, and my office 
will continue to employ the full range of tools to fight anti-
Semitism from reporting to international diplomacy, from 
training law enforcement to education, from multicultural 
relationship to public engagement. In so doing we must work 
hard to promote three things: Acceptance, respect and 
tolerance.
    The Jewish story is a unique one and anti-Semitism has 
unique aspects, especially as we observe these days of 
Holocaust remembrance, but hate is hate, and intolerance is 
intolerance. Jews cannot eradicate anti-Semitism alone. We 
condemn intolerance against any and all religious or ethnic 
groups, and strive to eradicate it. Together we must combat 
anti-Semitism and promote tolerance so that in the twenty-first 
century this age-old scourge finally will be relegated to the 
past.
    I look forward to working with you all, and Mr. Chairman, I 
am happy to answer your questions.
    [The prepared statement of Ms. Rosenthal 
follows:]Hannah Rosenthal 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you again for your great overview and 
presentation here to the committee. I want to start, I guess, 
with questions about this past Sunday and Holocaust Remembrance 
Day, and as we see the democratic trends of Holocaust survivors 
passing away and fewer and fewer of them around to tell of 
their experience. I guess can you talk about the status of 
Holocaust denial laws in the world, and how they are addressing 
this issue, and any countries in particular that you think 
serve as models for best practices in terms of how to address 
that?
    Ms. Rosenthal. There are several good stories I can tell 
you. Before I walked through the gate to Auschwitz we met with 
29 ministers of education from around the world, and the focus 
of that meeting was the status of their Holocaust education, 
and while uneven, all 29 states spoke about the importance of 
their education and how they are addressing it in their 
countries, and I considered that very good news.
    Mr. Carnahan. Can you cite any other best practices of 
countries that have taken positive action to combat anti-
Semitism and have any of those steps that you think could be 
replicated to other countries as a model?
    Ms. Rosenthal. I have a few examples for you. The incidents 
of anti-Semitism in the U.K. has gone up hugely and it is a 
cause of great concern, and two members of Parliament decided 
that this was to be a national priority there, and they did an 
investigation, which resulted in the creation of a body called 
the Interparliamentary Coalition to Combat Anti-Semitism, and 
they are working with parliamentarians throughout the country 
to not only address but to strategize how do we eliminate anti-
Semitism with our youth, with our older people and with 
everyone in between. They are kind of taking the show on the 
road and they are using that as a model in training many 
European countries on how to put together that kind of 
investigation and how to create an interparliamentary coalition 
as a result. They, by the way, will be having a meeting in 
November in Canada, which I am hoping you all will attend.
    France saw a tripling of incidents in 2009, and their 
response was to do what you all did, and that was to create a 
special envoy position, and that special envoy did come to meet 
with me to see how I plan to address the issue and mobilize 
agencies within the government and outside of government in a 
coordinated manner employ diplomacy, civil discourse, 
education, interfaith and intergroup relationship building.
    Mr. Carnahan. And on that I guess just to follow up on that 
topic, during the President's speech in Cairo in June 2009, he 
emphasized the importance of interfaith dialogue and interfaith 
actions. To what extent do you think that these kind of 
projects can help reduce the stigma and stereotypes around 
Judaism, Islam, Christianity, and to what extent do you believe 
they can be a useful tool, and I guess could you elaborate more 
on how the administration is using that?
    Ms. Rosenthal. Well, I agree that it is a very, very 
important tool. It is a critical tool. Everywhere I go, whether 
it is in a community in this country or abroad, I, of course, 
meet with government officials and I meet with the Jewish 
community to find out what their concerns are and how they are 
weathering the reports that we hear, but I make a point of also 
meeting with organizations that are working interfaith and 
interethnic advocacy.
    Jews cannot fight anti-Semitism alone. Muslims cannot fight 
hatred against Muslims alone, and it goes on for all vulnerable 
populations, and we have to recognize the common threads of 
hatred and how we have to work together to fight it.
    Mr. Carnahan. One more question, then I am going to yield 
to our ranking member, but I mentioned technology in my opening 
remarks, and the new technologies, YouTube, Facebook, Twitter, 
in terms of getting information out. It has been such a 
positive tool on the one hand, but the implications of the 
negative use of those technologies as well, if you could 
comment on really how you see this technology being used, how 
we can use it in a positive way, and is your office involved in 
that new media?
    Ms. Rosenthal. Well, I will tell you that just a few days 
ago they put me on Facebook, but I will tell you I have no idea 
how to use it yet. The department is using Facebook, Twitter, 
and Web sites that are constantly being added information and 
trying to figure out ways to be more user friendly.
    There is no question that the new technology and new 
communication tools represent both opportunities and huge 
challenges. We in this country treasure our First Amendment. 
However, when there is hate speech online and there is hate 
speech in the public discourse, it is not good enough just to 
protect freedom of expression. We have to call it out, and that 
is what we are focusing on: How do we use these new 
technologies to make sure accurate information is being put 
forth, and in addition we are calling out the bad speech, and 
condemning it strongly.
    Mr. Carnahan. Thank you. I want to yield now to the ranking 
member, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I would 
like to ask our witness, do you think our President has been 
forceful enough in calling out this hate speech and anti-
Semitism?
    Ms. Rosenthal. I absolutely do. I find his words very 
inspirational.
    Mr. Rohrabacher. Can you give me quotes that he has said 
about when he was apologizing to the Mullahs in Iran about how 
the United States have had a bad--have done bad things to Iran 
that might have caused ill will, do you have something that he 
also added in condemning their anti-Semitism of the current 
Iranian mullah regime?
    Ms. Rosenthal. In our bilateral relationships and our 
multilateral relationships, this is a high priority. We 
consider Holocaust denial, Holocaust glorification, which 
unfortunately is out there, absolutely unacceptable, and the 
administration is deeply committed to doing so. I have----
    Mr. Rohrabacher. I am just going to have to tell you, and I 
again I am trying not to be partisan here, but obviously I am a 
Republican and I am a little sensitive when a President of the 
United States begins in an apologetic tone to a regime like the 
mullah regime in Iran.
    You are saying that you are confident that he has offset 
that with other public statements that condemned anti-Semitism 
in Iran?
    Ms. Rosenthal. I think the President has been very firm, as 
has the Secretary of State in--by the way, in my position, 
which has been elevated and integrated into the workings of the 
entire State Department, in elevating my visibility and my 
access to all parts of the department is an indication of an 
increased commitment and a strong support.
    The President speaks so inspirationally, and when he 
condemns hatred against one group, it is condemning hatred 
against all groups, and he has been very strong in his support 
of the Jewish community and in calling out anti-Semitism.
    In his comments on Holocaust remembrance and when we were 
in Auschwitz in January, I only quoted a little bit of what he 
said when I quoted him here, but very movingly he talked about 
our responsibility to recognize what happened is unique to 
Jews, and how we take those lessons and translate them into a 
better world where hatred against anyone is eradicated.
    Mr. Rohrabacher. Well, I am sorry I am not being too more 
general here because, frankly, broad statements with flowery 
words do not move me. What moves me is specific statements, 
when you say ``calling out'' you are not talking about making a 
general statement against anti-Semitism or condemning the 
Holocaust, we are talking about specific statements toward a 
regime that is a monstrous regime that we should have helped 
their people overthrow their own government a long time ago, 
and the mullahs--and what we have is a President going over 
there and apologizing for what we have done in the past. I 
would hope that that did not give people the impression that 
United States--people of the United States in some way are 
ignoring the anti-Semitism elements as well as the anti-Western 
elements that are going on in Iran today.
    The Islamic culture is expanding into Europe and there are 
repercussions of this, and we see the moves by the banning of 
head scarves and minarets and things like that that have been 
popping up in various countries, Switzerland, et cetera.
    Now does this type of let us say response to the expansion 
of the Islamic culture, is that leading to anti-Semitism in 
these countries?
    Ms. Rosenthal. There is never an excuse, I don't care what 
it is, for anti-Semitism.
    Mr. Rohrabacher. Of course.
    Ms. Rosenthal. And anybody who uses some kind of excuse, 
whether political, religious or whatnot, is to be condemned. 
When I used the word ``call out'' before, that is what I meant, 
strongly condemned.
    Mr. Rohrabacher. So they can actually ban the head scarves 
and do these things without having to worry that this is going 
to have an anti-Semitism response?
    Ms. Rosenthal. Well, we believe strongly in this country of 
the freedom of expression, the freedom of religion, people 
should be able to practice their religion, including wearing 
head scares or caput for Jews, and we totally oppose laws that 
would make that criminalized. Freedom of expression, people 
should be able to freely represent themselves, whether it is 
their religion, and the list goes on.
    So, no, and we speak out against that when France proposed 
that.
    Mr. Rohrabacher. Well, as you can tell I am a little bit 
concerned about what I considered to be lack of a tough 
position with what is obviously an overtly anti-Semitism regime 
in Iran, the President, I don't believe, has been tough enough, 
but let us go on.
    He has been pretty tough on Israel on the other hand. I 
mean, Israelis refurbished some apartment buildings, and all of 
a sudden they have become the enemies of peace, and do you 
think that the President's tough stand on that has helped 
alleviate or contributed to the anti-Semitism in the Middle 
East?
    Ms. Rosenthal. The anti-Semitism in the Middle East is 
there for any different root causes and----
    Mr. Rohrabacher. Sure.
    Ms. Rosenthal [continuing]. One of them isn't what the 
President says.
    Mr. Rohrabacher. Okay, so the President of the United 
States' tough rhetoric with Israel but not so tough rhetoric 
with the Iranian mullahs doesn't send a message?
    Ms. Rosenthal. I obviously see it very differently, 
Congressman.
    Mr. Rohrabacher. All right. I see that my time is up and 
let me just thank the witness for putting up with my very 
pointed questions.
    Ms. Rosenthal. Thank you.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Mr. Carnahan. I want to thank the gentleman, and now 
recognize our colleague from the committee, Mr. Ellison, for 5 
minutes.
    Mr. Ellison. Thank you, Mr. Chairman, and thank you to the 
witness. Welcome to this committee.
    Ms. Rosenthal. Thank you.
    Mr. Ellison. I would just like to read a quick statement if 
I may.
    Chairman Carnahan, thank you for holding this important 
hearing today on combating anti-Semitism. This past Sunday we 
observed Yom Ha'atzmaut in which we remember all those who died 
and suffered because of the Holocaust. We also mourn our 
collective failure to prevent such a horrific tragedy. It is a 
painful lesson of dangers of inaction, and we remind ourselves 
that we must never be complacent in the face of genocide, 
xenophobia, intolerance and hatred.
    As we remember those who were killed in the Holocaust, we 
must also commit ourselves to combat the same discrimination 
that continues today. Incidents of anti-Semitism dramatically 
increased in 2009, and I am committed to speaking out against 
all acts of anti-Semitism regardless of where they originate. 
This is why it is also important that we are holding this 
important hearing today.
    I just want to note that in 1983, when I was 19 years old, 
I went to Poland as a student exchange participant, and we went 
to Auschwitz, they call it ``Oswiecim,'' and you know, I just 
think that is something that every person of any age could do 
because it does dramatically demonstrate what depths humanity 
can sink to, and it just reminds me that we all have to be 
vigilant.
    I have also been to Yad Vasshem. I have also been to the 
Holocaust Museum even in Amsterdam and Norway, and I can tell 
you that every time I go to a place like that it renews my 
commitment to try to speak up when people are threatened based 
on who they are, what they believe, what they look like, and 
even what their gender is. You know, sadly there are occasions 
in the world we live in right now where people because of their 
gender are being persecuted, abused, raped, but whether it is 
religious persecution as in the Holocaust or whether it is 
ethnic cleansing persecution or whether it is other types of 
abuse, it is something that I hope this Congress always stands 
against.
    So I yield--well, I don't really have any questions. I had 
the privilege of meeting with the special envoy and she 
answered all my questions, but I just want to let you know how 
proud I am of the work you do.
    Ms. Rosenthal. Thank you.
    Mr. Ellison. And I encourage you to just keep it up. Please 
call on us.
    Ms. Rosenthal. Thank you very much, Congressman.
    Mr. Carnahan. I want to thank the gentleman. I now 
recognize our colleague, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Ms. Rosenthal, thank you for your testimony.
    Ms. Rosenthal. Thank you.
    Mr. Smith. And for the information you have provided. Let 
me just ask a couple of questions.
    First, on two previous occasions I actually had Natan 
Sharansky testify at hearings on anti-Semitism. One of those 
hearings he brought with him a number of clips from Arab 
television that included a soap opera where blood libel was 
treated as if it were a reality rather than a horrific lie, and 
also some news clips, and made the point that many people in 
the Middle East and many people who are part of diaspora who 
live in Europe, France and elsewhere feed on that kind of anti-
Semitic hate in all aspects of their life. They watch it on 
television, they see it in their news programming, and when you 
are young and impressionable especially that will lead you to 
think, oh, it must be true.
    Rabbi Baker in his testimony points out that in an example 
in Sweden of a newspaper called ``Aftonbladet''--I may be 
mispronouncing it--published a report from Gaza claiming that 
Israeli soldiers were harvesting organs from Palestinians that 
they had killed. This updated version of the medieval blood 
libel charge was openly denounced by political leaders in the 
United States and in some European capitals. However the 
Swedish foreign ministry maintained in that in its press 
freedom laws do not permit its own public officials to 
criticize the article, and they even reprimanded their own 
ambassador who made some comments contrary to it.
    You know, these are some of the problems obviously face, 
and Andy Baker faces it as he travels throughout Europe. I 
wonder if you could tell us what your plans are in terms of 
active monitoring.
    When Sharansky presented his testimony everyone if us, 
Democrat and Republican alike, sat there, our mouths 
practically dropped, and we said, we never knew. You know, none 
of us have ever seen that before. And I am wondering if you 
have other than the data calls that go out to our embassies for 
information, if you have any plans to look at print, especially 
the broadcast media, especially the entertainment media, 
because, again, this influence that this has is pernicious. If 
I could, active aggressive monitoring would be the point there, 
particularly of the broadcast.
    Secondly, on staffing, I remember when John Shaddock sat 
right where you sit and I chaired the Human Rights Committee, 
and Frank Wolk had a bill called the International Religious 
Freedom Act. The administration, the Clinton administration was 
completely against it, completely. The bill died a death of 
1,000 deaths as it made its way through the House and the 
Senate. I held all the hearings on it. And when it was finally 
passed, obviously it took awhile for it to get up and running, 
but John Shaddock sat there and said it would set up a 
hierarchy of human rights when it came to religious freedom, 
all of it was unfortunate. Thankfully not a true response, and 
then the administration became advocates for it.
    When the Global Anti-Semitism Review Act came up, Colin 
Powell, Secretary of State, wrote a several page letter saying 
it was unneeded, we already had that covered by IRFA, and again 
we ran into one of those things where don't worry about it, we 
have got it covered.
    We responded very aggressively, passed the bill. It was a 
Senate bill, but as I said at the beginning it was going to be 
a 1-year review. I offered the amendment to say I am going and 
you in an office is in charge of it. I am very concerned about 
the trend of--again of maybe double hatting, maybe not your 
position, but the staff. And if you could speak to--we need, I 
believe, dedicated staff that is integrated and working with 
IRFA and other State Department personnel who are talented and 
have part of their portfolio, or all of their portfolio working 
these issues, but I would hate to see the specialness of your 
office diluted, and that is what I would believe it to be if 
you didn't have dedicated staff, so if you could speak briefly 
to the staffing issue.
    And finally, before my time runs out, I have a lot of other 
questions, but the Inter-Parliamentary Coalition for Combating 
Antisemitism, I think everybody in that front row was there and 
spoke at it, I spoke at it in London. Jonathan Mann, a member 
of the Parliament, had done an outstanding job. I am one of the 
founding members, and I hope all of us go on November 7th to 
the 9th to Canada to be a part of it.
    But let me ask one final question on the Internet. We hear 
among our OSCE friends over and over again that the free 
speech, and I am a passionate defender of First Amendment free 
speech, but when it comes to hate speech and incitement, we 
know obscenity is not protected speech, I am a sponsor of the 
Global Online Freedom Act which protects nonviolent political 
speech, nonviolent religious speech. I want nothing to do--that 
is not free speech in my opinion, especially when it inures so 
horrifically against Jews because it just does terrible things. 
I mean, I have seen some of it at the side issues at the 
parliamentary assembly meetings, and you can't watch that 
without saying, how can that be protected speech. So the 
internet, if you could speak to that as well.
    Ms. Rosenthal. Well, your first question kind of links to 
the third question, and that is, how aggressively and actively 
am I monitoring the messages and the media, and it is bone-
chilling. I do have much more recent clips, which I would be 
happy to share with you if you really want to have a bad 
afternoon. Tapes of people looking at the camera, and this is 
on Al-Jazeera, so it is watched by millions of people, where 
clerics are calling for a new Holocaust, where they show actual 
footage of the Holocaust and say, isn't this wonderful what 
humiliation we are watching, next time we hope we can be part 
of it. I mean bone-chilling. There aren't words strong enough 
to condemn that, but representing free speech and not calling 
that what it is--hateful, disgusting and using every diplomatic 
tool we have to condemn it--would be the wrong thing and we are 
using all the tools.
    The Internet, then you know because John Mann, who is the 
member of Parliament in U.K., really believes that bad Web 
sites need to be shut down, and he and I have a good little 
tussle when we are talking because I say, the answer to bad or 
hateful speech is more good speech, and that we need to respond 
to it, not try to shut it down because it cannot be shut down. 
They would just come over here, open up a Web site, and do 
their technology, which I don't understand.
    It is very serious. It can be used to incite to violence 
which is absolutely the only exception we in the United States 
Government use. First Amendment rights and freedom of 
expression is paramount except when it comes to incitement to 
violence, and there are examples where there is incitement to 
violence and we raise it with the television stations and we 
raise it with the ambassadors, and with the NGOs on the ground 
that are trying to deal with it.
    Mr. Smith. The staffing?
    Ms. Rosenthal. The staffing. Nothing I have needed has not 
been responded to. I work with a great team at the Department 
of State. I mentioned that I have been brought into the 
building up on the 7th floor. I have a front office of the 
Bureau of Democracy, Human Rights and Labor. I work directly 
with Assistant Secretary Mike Posner, and very closely with the 
International Religious Freedom staff. I can't begin to tell 
you how helpful it is.
    It is not being diluted. It is being elevated, and I am 
integrated into every directors' meeting, every senior staff 
meeting, I am there asking the questions that need to be asked, 
and I think you would be proud of how well the department is 
supporting me and how much access and help I get.
    Mr. Carnahan. Thank you.
    Mr. Smith. Just 2 seconds?
    Mr. Carnahan. Without objection I yield.
    Mr. Smith. I appreciate your yielding.
    And ambassador-at-large for religious freedom, will that 
person be named soon?
    Ms. Rosenthal. There has been a person identified and the 
person is being vetted currently.
    Mr. Smith. Okay.
    Mr. Carnahan. That is good news.
    Ms. Rosenthal. I am glad you asked.
    Mr. Carnahan. I want to thank you for being here. 
Congratulate you on your new position, for the work that you 
do. We look forward to working with you on many of these 
challenges, especially the time spent today. Thank you.
    Ms. Rosenthal. Thank you so much.
    Mr. Carnahan. I think what we will do with votes being 
called, we have four votes, and I think what I would like to do 
just to pick up some time is have the second panel come up. We 
will do a quick introduction of the four on the panel, and then 
we will break, do our votes, and come back, and we can jump 
right into questions.
    Welcome to all of you for being here. Thank you for being a 
part of this hearing. I want to start with Mr. Kenneth 
Jacobson. He will be our first witness for this panel. He is 
the deputy national director for the Anti-Defamation League. He 
is also the former director of the International Affairs at 
ADL.
    Mr. Jacobson holds a master's degree in American history 
from Columbia University, earned his bachelor's degree in 
history, and Hebrew literature at the Yeshiva University. 
Welcome.
    Next, Rabbi Andrew Baker. He is the director of 
International Jewish Affairs for the American Jewish Committee. 
In January 2009, he was appointed the personal representative 
of the OSCE chair in office on combating anti-Semitism, and was 
reappointed in 2010. Rabbi Baker served as AJC's director for 
European Affairs from 1992 to 2000, and as Washington area 
director from 1980 to 1992. He is the past president of the 
Interfaith Conference of Washington and a former commissioner 
on the District of Columbia Human Rights Commission.
    Rabbi Baker received a B.A. from Wesleyan University and a 
master's degree in rabbinic ordination from Hebrew Union 
College, Jewish Institute of Religion in New York City.
    Next, Ms. Elisa Massimino, did I get that correct? Sorry 
about butchering your name. She will be our third witness 
today. She is CEO and executive director of Human Rights First. 
She is the former director of the organization's Washington 
Office. She serves as an adjunct professor at Georgetown 
University Law Center where she teaches human rights advocacy 
and has taught international human rights law at the University 
of Virginia and refugee law at George Washington School of Law. 
She is also a member of the bar of the United States Supreme 
Court.
    She holds a law degree from the University of Michigan, a 
master of arts in philosophy from Johns Hopkins University.
    Last but not least, Rabbi Abraham Cooper. He is the 
associate dean of Simon Wiesenthal Center. For three decades, 
Rabbi Cooper has overseen the Wiesenthal Center's international 
social action agenda ranging from worldwide anti-Semitism and 
extremist groups, Nazi crimes, to interfaith relations, and the 
struggle to thwart the anti-Israel divestment campaign, to 
worldwide promotion of tolerance and education. He is 
recognized as an authority on issues related to digital hate 
and the Internet.
    Rabbi Cooper has his B.A. and M.S. from Yeshiva University 
and a Ph.D. from the Jewish University of America.
    Officially welcome all of you. We look forward to hearing 
your testimony, and we will have some questions when we return 
from these set of votes. Thanks very much. We will be in 
recess. Assume this will take about a half an hour to 45 
minutes.
    [Recess.]
    Mr. Carnahan. I want to reconvene the subcommittee. I 
appreciate your patience, and we will jump right back into 
this. We have also been joined by our colleague Ron Klein from 
the full committee. I want to welcome him, and also I 
understand Rabbi Cooper has a time issue, and if it is all 
right with everybody else we are going to ask him to go first. 
Also, just by the nature of time, we had allotted 5 minutes 
originally. If you could do it a little shorter, keep it short 
and crisp, we can get right to questions.
    So Rabbi Cooper.

   STATEMENT OF RABBI ABRAHAM COOPER, ASSOCIATE DEAN, SIMON 
                       WIESENTHAL CENTER

    Rabbi Cooper. Since you already have my comments, I will 
try to cut to the chase, and I will take toward the end of my 
remarks a few minutes to show you some of the Web sites that 
you had referred to in your opening remarks, and hopefully we 
will still be around to have a bigger dialogue on the issue of 
what to do with the Internet companies, et cetera.
    As the chairman and others have pointed out, share this 
afternoon the shocking statistics of 100 percent rise in 
violent acts against Jews the world over, and I will not repeat 
here the horrifying statistics brought down from the Roth 
Institute's report, but much more than synagogue, schools and 
cemeteries are under attack. Memory and the very legitimacy of 
Jewish identity are also under assault.
    A French Holocaust survivor, Jewels Isaac, labeled the 
century's long Christian theological anti-Semitism ``the 
teachings of contempt'' which created an environment that 
helped make the Shoah possible. Thankfully in 2010, the 
Catholic Church is an ally, not an enemy in the struggle 
against history's oldest hatred, but a generation after 
Auschwitz the teachings of contempt are alive and well.
    Using statecraft, the Internet, academic freedom, age-old 
canards have been powerfully repackaged to disrespect our dead, 
demonize the living, and de-legitimize the Jewish peoples' 
narratives. Why not desecrate a synagogue in Caracas or hurtle 
rocks at a Passover Seder at a Rabbi's home in Budapest, attack 
Jews on the streets of Berlin on a Sabbath morning if you are 
taught and believe that the Protocols of Zion is a legitimate 
book about Jews and Judaism and that synagogues are actually 
the epicenter for Jewish conspiracies to control the world?
    What if, as the U.N. Human Rights Council's Web page posts, 
there really is a plot of the Israeli military to harvest 
organs of Palestinians, Ukrainians and even Haitians? After 
all, as has been stated before here, the Government of Sweden 
in the name of defending freedom refused to condemn a 
mainstream article headlining such canards.
    If Jews lie about a 3,500-year-old relationship with the 
Holy Land, if Solomon's Temple was never built in Jerusalem as 
senior Palestinians insist today, if, as a recent article in 
Kuwait's Al-Tard insists, Adolph Eichmann, the chief organizer 
of the Holocaust, was actually a friend of the Jews whose 
``kindness'' was repaid by kidnapping and executing him, if 
there was no Final Solution, as the genocide threatening 
Ahmadinejad insists, and that the real Nazis are the people of 
Israel, as too many diplomats, Imam's Ministers, professors and 
campus activists chant in unison, or what if, as some leaders 
in the Baltics say, there is nothing unique about the Nazi 
Holocaust, that it should be remembered simultaneously with 
victims of communism, why then in democratic Lithuania why not 
prosecute former Jewish partisans while refusing to try a 
single Nazi collaborator?
    These trends are now just a few short years ago were 
marginal rantings are not a permanent feature of the subculture 
of hate on the Internet. The Internet incubates the big lie 
conspiracies, repackages the oldest hate, and promotes center 
stage the denial of the Shoah.
    Let me just take a few seconds to show you a few of the 
visuals from our annual report just released with the help of 
your colleague, Congresswoman Maloney, a few weeks ago. Our 
latest report accounts for about 11,500 problematic Web sites, 
social networking, blogs, et cetera, on the day of the Oklahoma 
City bombing 15 years ago there was exactly one hate Web site 
on the Internet, and I have just for the purposes of this 
meeting pulled only a few of the hundreds of postings.
    This one from Russia, this one from the Palestine 
Information Center, this says, ``Enough, exterminate the 
rats.'' If you look up at the screens, you can follow it. Here 
you have what looks like an online version of the New York 
Times or the Washington Post, and said it is called ``Filthy 
Jewish terrorists'' and if you look carefully at the headlines 
actually in the lower right-hand corner there is a signature 
picture of the Oberai Hotel in Mumbai ablazed last year which, 
of course, was attacked by Islamist terrorists from Pakistan, 
and all of the ills of the world, and all of the breaking news 
is simply repackaged to reflect it being done by Jews.
    David Duke, this is a Facebook page called ``Zionist 
Terminator'' that has some 2,400 fans. A few blocks from here 
last year you had James Von Brunn, an 89-year-old racist come 
shooting into the United States Holocaust Memorial Museum. Now 
this is a man who was a bigot a long time before the Internet 
came along, but he kept his hatred alive and it was validated 
and promoted because he continued to be active on the Internet, 
and other racists who survive him continue to hold this up as a 
great example. And even when someone, in the case of the 
shooter at the Pentagon, who had no known connection to the 
hatred of Jews or White Supremacy, immediately after his 
attack, that act was then cut and pasted by the extremists 
online to make it appear as if he in fact was an anti-semite or 
was motivated by the hatred of minorities.
    These are now various Web sites around the world that mock 
or deny the Shoah. This is a Facebook page called ``Six Million 
for the Truth about the Holocaust.''
    For the record, Simon Wiesenthal Center has a very good 
working relationship with Facebook, especially in the area of 
interdicting terrorist, pro-terrorist sites, but as we see 
there are when we come to issues involving denial of the 
Holocaust and demonization of all religions, we think that they 
come down, if you will, too hard on the side of freedom of 
expression and not enough on the side of community standards.
    What I am going through right now without stopping is just 
to give you some of the examples of Holocaust denial. The book 
called ``The War for Genocide: The Protocols of Zion,'' all 
over the Internet. Here you have it in Egypt.
    YouTube, as a social networking site, being promoted. This 
is a Nazi game which I won't bore you with the horrible details 
but basically to win the game you shoot down mocked Jews who 
are en route to the gas chambers. But on the Internet today you 
also have hate games of bombing the survivors of the Haitian 
earthquake. You have a suicide bomber game where you win if you 
collect the body parts. This too is all part of the Internet.
    Here you have the conspiracy mindset of Plan Andinia of 
Chile and Argentina saying of an alleged plot for Israel to 
take over that part of the world, and this is the updated 
version, of course, of the blood libel, the harvesting of 
organs, all over the world with a big boost not only for the 
Government of Sweden, but especially, of course, the Iranians, 
and the recent elections in Hungary which gave the extremists 
party, an anti-Semitism party close to 17 percent, now the 
third largest party in the country, and here you have the 
validation of murdering Israeli civilians by prominent Imam.
    And I will just close here with--I won't repeat what it 
says at the top, but these are sites that are currently up and 
running on Facebook. If you look, the first one is an attack on 
Judaism, Christianity, Islam, Judaism, Hinduism. So for all of 
the important statements that were made before that we are here 
first and foremost to talk about anti-Semitism and also 
connecting anti-Semitism to the world view of those who support 
terrorism, that is all reflect in the reality on the Internet 
today.
    Thank you, Mr. Chairman.
    [The prepared statement of Rabbi Cooper 
follows:]Abraham Cooper 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Rabbi, thank you for that really graphic and 
broad overview of some of the things that are out there.
    Next I want to go to Mr. Jacobson.

 STATEMENT OF MR. KENNETH JACOBSON, DEPUTY NATIONAL DIRECTOR, 
                     ANTI-DEFAMATION LEAGUE

    Mr. Jacobson. Thank you for holding this hearing. I think 
it is very important that you are doing so. We have already 
submitted a lengthy document for your reading. I was going to 
make some extended remarks but because of time I think I will 
just limit myself to a few comments.
    Let me first say that people ask us at the ADL, is it 
happening all over again? We get that basic question, and our 
answer is no. Let us understand what the Holocaust was, a 
unique situation. But having said that I think what most 
disturbs us is the peeling away step by step of all the 
constraints against anti-Semitism that grew out of Auschwitz. 
In other words, when the world saw Auschwitz they didn't 
suddenly not become anti-Semitic, but they became embarrassed, 
ashamed about manifesting anti-Semitism, and while that is not 
everything that we want, we surely want peoples' attitudes to 
change, that had a tremendous impact for decades, limiting the 
manifestations of anti-Semitism.
    And I would say today because of a combination of factors--
time passing, witnesses dying away, and the fact of this 
constant barrage against the State of Israel has opened up a 
legitimization of anti-Semitism, and a peeling away of those 
constraints that allowed us to live in a world where for 50 
years or so anti-Semitism existed, but it existed in certain 
limited fashion which now I think are being peeled away, and 
that is what keeps me up at night, which is the idea as we move 
along if we continue to allow these constraints to be removed 
we may see a much more explosive period of anti-Semitism in the 
future.
    Secondly, there are two ironic and depressing 
manifestations of hatred toward Jews which have reemerged which 
we have to deal with. One is the great irony, this is the Human 
Rights Committee, is that a lot of human rights law came out of 
the terrible experience of the Holocaust: Universal Declaration 
of Human Rights of the U.N., the Nurenberg laws were 
manifestations of the world waking up to what happened at 
Auschwitz. We have the situation today, particularly at the 
Geneva Human Rights Council, but in other ways, where human 
rights laws are now being turned against the Jewish people 
through the State of Israel, and it is something that we should 
be outraged about, and we should call attention to, and make it 
clear that it is the Jewish people who not only suffered the 
greatest degradation of human rights, but that indeed so many 
Jews and Jewish organizations as represented here have been in 
the forefront fighting for human rights around the world, and 
this degradation of this principle is one that is not only 
dangerous to the Jewish people but dangerous to the world at 
large.
    And connected to that is the ironic and very depressing 
element of how the Holocaust itself is being turned against the 
Jewish people. The great tragedy of the Jewish people is now 
being used in so many instances against Jews. During the war in 
Gaza so many of the protestors against Israel and against Jews 
had signs accusing Israel and the Jewish people of being the 
Nazis of today.
    Whatever your views are of Israeli policy, the notion of 
comparing Israel today to what happened to the Jewish people 65 
years ago is outrageous and really is important to counter and 
to make clear what all this is about, and these are things that 
we have to see.
    Now, people ask us very often what is the difference with 
all these problems, the Ahmadinejad problem, the nuclear issue, 
the global anti-Semitism, what is different today? And I think 
what is really truly has been different in so many ways in 
terms of the Jewish condition has been our great country.
    If we remember in the 1930s America, when Woodrow Wilson 
went to Paris after World War I and came up with the concept of 
the League of Nations, and came back and the U.S. Senate 
rejected American participation, we retreated into 
isolationism, what turned out to be a disastrous development 
for the world at large and for the Jewish people.
    The United States, thank God, entered World War II soon 
enough to save the world from Hitler. We did not enter the war 
soon enough, for a whole variety of reasons to save the Jewish 
people, and we know about that, and so much of what we have 
done and what our own Government and people have done over the 
years is to say ``never again'' and to use the leadership of 
the United States to ensure it. And I think that continues to 
be the message. The work that we did with the OSCE, all these 
committee hearings, the legislation, all the public statements 
over the years, the work with Soviet Jewry, and Ethiopian 
Jewry, and all of these issues were because of the tremendous 
leadership of the United States of America.
    And so you are holding this hearing today, in my view, as 
part of that historical process and the most I think we can say 
is we need to encourage to move it forward in a very, very 
positive direction. That means in terms of bilateral relations 
with every country this must be a priority. That means in terms 
of enforcing legislation and building up Special Envoy Hannah 
Rosenthal's work and the work that we do, all of that is 
terribly important.
    My basic message is that the problems are becoming more 
severe, and the role that all of us play in the months and 
years ahead will become even more important. Thank you very 
much.
    [The prepared statement of Mr. Jacobson 
follows:]Kenneth Jacobson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you, Mr. Jacobson. Appreciate your 
being here and your remarks.
    Next I want to go to Rabbi Andrew Baker. We will recognize 
you for 5 minutes.

  STATEMENT OF RABBI ANDREW BAKER, DIRECTOR OF INTERNATIONAL 
           JEWISH AFFAIRS, AMERICAN JEWISH COMMITTEE

    Rabbi Baker. Thank you. Thank you, Mr. Chairman. Again you 
have my full testimony for the record, and I am going to try to 
summarize what I had prepared in an abbreviated form.
    I think for all of us if we look back on this decade it is 
evident that we were overly optimistic in thinking so many 
issues, domestic and international, would be resolved, so 
perhaps we, while can be troubled, should not be surprised that 
anti-Semitism is one of those issues.
    We can recall the U.N. Conference in Durban in 2001, which 
was really intended to fight racism but became a venue for a 
new anti-Semitism, an attack on Jewish targets. The breakdown 
of the Middle East peace process shortly thereafter triggered 
unprecedented attacks on Jewish targets in much of Western 
Europe. Many Eastern European countries eager to gain 
membership in NATO were focused for a time on addressing 
unfinished issues related to the Holocaust, Holocaust history, 
dealing with anti-Semitism, property restitution. But most of 
those efforts were incomplete and still remain with some 
distance to go.
    We have seen the persistence of ultra nationalist parties 
in Europe, the old ones in France and Austria, for example, and 
new ones which have been formed in Bulgaria, only last week in 
the elections in Hungary. Many of these parties have a more 
broad anti-Roma xenophobic agenda, but they all link together 
with anti-Semitism as a theme running as well.
    We know of this, it has already been addressed by several 
speakers that anti-Israel animus that really has become a new 
form of anti-Semitism when it crosses over literally to the 
kind of eliminationist talk of Israel, holding it up to 
standards no other country is expected, et cetera.
    What I wanted to do here was to reflect at least in some 
areas based on my work at AJC, but also as the personal 
representative of the OSCE chair. I would say to begin with 
that the essential element of the problem in many countries is 
the increasingly normative presence of anti-Semitism in public 
discourse, in press, media, on the Internet, and at public 
gatherings. It is pernicious in its own right, but it also 
represents or can represent serious security questions for Jews 
and Jewish institutions.
    Many European countries have various laws that restrict 
hate speech. Usually the difficulty is not necessarily in the 
legislation itself, but it is in the difficulty of actually 
enforcing and operating with these laws. I have enumerated in 
my written testimony specific examples, but in many cases what 
you have are laws that are only infrequently enforced. You 
often have months, even years passing, before a charge that has 
been brought reaches some conclusion.
    In countries such as our own which have very absolute free 
speech protections, we have devised other ways to confront this 
hate speech. We are accustomed to seeing political figures, 
civic leaders speaking out quickly and forcefully. That, in any 
case, is what we would ask. But in many of these countries we 
will find political leaders saying, ``It is in the hands of the 
prosecutor, we can't speak.'' In some case it is really a way 
to let them off the hook, and they are looking for a way to be 
let off the hook. In other cases you will find, I think, in 
different countries political leaders calculating that being 
too strongly opposed to anti-Semitism may even cost them votes, 
so leaving that somewhat ambiguous literally plays to their 
political motives.
    One of the concerns that has been identified by ODIHR in 
its most recent hate crime report is the need for monitoring, 
for recognizing these events when they take place. Governments 
have been urged to do it. Many are lax or incomplete in their 
collecting data or in collecting data that is sufficiently 
detailed to identify perpetrators and victims. As I mentioned, 
since much of anti-Semitism comes in the form of public 
discourse, sometimes that is the first area that is really not 
very well monitored and recorded.
    Governments have made certain commitments within the OSCE 
process. They are not all living up to it. We need to push them 
to do it. We can also encourage and support Jewish communities 
in collecting their own information in a standardized way that 
can then become again a vehicle for reporting. What has 
happened too frequently is that events are not reported. If 
they are not reported, political leaders say we don't have a 
problem. We know differently.
    Finally, in a general overview, the importance of defining 
anti-Semitism cannot be underestimated. The European Monitoring 
Center, which is an EU agency, 6 years ago conducted its first 
survey, its first analysis of anti-Semitism in the EU then of 
17 countries. Over half the monitors of those countries had no 
definition at all. Of those that did no two were the same, and 
as a result pushing them and working with them they developed a 
``working definition'' of anti-Semitism. It is an official 
definition now of the EU Fundamental Rights Agency.
    The full definition is appended to my report, but it is 
important to note that it gives a clear overview of what anti-
Semitism is and it has a very specific area focusing on where 
that anti-Israel animus itself becomes a form of anti-Semitism. 
There are other definitions that may be similar but I think it 
is very important for us to focus here because essentially 
here, at least now for 27 countries in the EU this is their 
definition, and I think we want them to live up to it. It has 
been undertaken for use by ODIHR and its police training, so 
here we have it being disseminated to 56 countries.
    In conclusion, I can recall, and I know that Congressman 
Smith was with us in Berlin at the time of the OSCE conference 
in 2004, and in the issuing of the Berlin Declaration that at 
the time 55 countries ascribed to. Among that declaration's 
statements, I want to point out that these countries said, and 
I quote, ``International developments or political issues, 
including those in Israel or elsewhere in the Middle East, 
never justify anti-Semitism.'' A terrific declaration.
    Sadly, I think we see it is still the problem, not 
necessarily that it justifies it in the eyes of political 
leaders, but it often triggers it, and it is often used as an 
excuse for it. So here I think we need to keep our focus and 
focus on those governments to live up to the declaration that 
they ascribed to 6 years ago.
    The OSCE does remain an important international venue to 
get at this issue when you think and put it in contrast to what 
happened in Durban at that U.N. conference. We have had very 
serious discussions within the OSCE, and in commitments that 
governments have made. It only has happened because here in 
Congress there has been the impetus, pushing at times an 
administration that may be reluctant because of that OSCE 
consensus-based decisionmaking process, but it has succeeded.
    The current chair-in-office, Kazakhstan, has indicated it 
will hold a high-level conference at the end of June. I think 
it is very important that the U.S. is represented at a high 
level. All of us at the table here are trying to encourage the 
administration to do so. We hope you can play an equally strong 
role in pushing for this.
    I would add one other element within the OSCE. Every year 
there is a Mediterranean seminar linking those six 
Mediterranean partners with the OSCE, and I believe it is an 
opportunity with enough time given to it and with energizing 
our own representation in Vienna that at that gathering it 
should be possible to address these issues, the issue of anti-
Semitism and other tolerance-related issues with those 
partners. As we know, as we have seen, some of those partner 
countries--Egypt, Tunisia, Algeria--have become a source of 
anti-Semitism exported to immigrant communities in Europe 
proper. So with effective planning I think we can make that an 
important venue as well.
    In closing, I think one always has to say, and I thank the 
members here, that your ability to raise this issue when you 
receive leaders of foreign governments who come to Washington 
or when you travel abroad is perhaps the most significant 
effort that the U.S. Government plays. As long as political 
leaders in these countries know that here on Capitol Hill, that 
here in Washington this issue matters, then it gets their 
attention and they will at least begin to address it. I think 
without this help we truly would be lost.
    So again let me thank you. We at AJC, whatever efforts and 
resources we have at OSCE in my role are ready to assist you or 
offer any information or material that would be helpful. Thank 
you, Mr. Chair.
    [The prepared statement of Rabbi Baker 
follows:]Andrew Baker

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you, Rabbi Baker, and last we want to 
turn to Ms. Massimino.

STATEMENT OF MS. ELISA MASSIMINO, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, HUMAN RIGHTS FIRST

    Ms. Massimino. Thank you, Mr. Chairman, and thank you all 
for your leadership and attention to these issues. I want to 
say a special thank you to Congressman Smith with whom we have 
worked so closely on this issue and many other human rights 
issues over many years.
    Combating anti-Semitism has been a priority for Human 
Rights First for a long time. In 2002, we started monitoring 
the rise in violent acts motivated by anti-Semitism and to 
press for stronger government action to combat them, and since 
that time we have issued a number of reports on the subject, 
which I have with me and can share with you.
    Our focus and the focus of my statement and our testimony 
has been on anti-Semitic hate crime in Europe and North 
America, specifically on the 56 countries of the OSCE. We have 
long maintained that anti-Semitic violence, along with other 
hate crime, must be viewed and responded to as a serious 
violation of human rights. Likewise, we believe it is important 
that these violations be challenged, not just by victims groups 
or those who represent communities of targeted individuals, but 
by all who seek to advance universal rights and freedoms.
    I would like to make three quick points today, and ask that 
the rest of my written testimony be included in the record.
    First, anti-Semitism is a unique and potent form of racism 
and religious intolerance, and the extent of violence motivated 
by anti-Jewish animus throughout much of the OSCE region 
remains alarming. Second, with few exceptions, government 
responses to this rising tide of violence has been woefully 
inadequate; and finally, other forms of violent hate crime 
motivated by race, religion, national origin, sexual 
orientation, and other similar factors have also been on the 
rise in many countries, and governments and nongovernmental 
actors should be developing comprehensive strategies to combat 
it.
    In Europe and North America, anti-Semitism violence remains 
at high levels following a significant increase beginning in 
the year 2000. Indeed, violence in some countries is several 
times higher than it was at the end of the 1990s. Anti-
Semitism, like other forms of racism, is an obstacle to 
participation in public life fully and free of fear. Violent 
incidents have involved individuals who are identified as 
Jewish by their religious dress or appearance when traveling on 
public transport or walking in the street, and in many 
instances Jews have been targeted while going to and from their 
places of worship or schools.
    The translation of sentiment against Israel or the policies 
of its government into anti-Jewish antipathy has since 2000 
generated new patterns of anti-Semitism violence that has 
fluctuated in relation to events in the Middle East. This new 
anti-Semitism combines the ancient route in forms of anti-
Semitism with new political elements, and appear to be related 
to periodic surges in the tax.
    But the Middle East is only a part of today's anti-
Semitism. Contemporary anti-Semitism is multifaceted and deeply 
rooted. It cannot be viewed solely as a transitory side effect 
of the conflict in the Middle East. Anti-Semitic incitement and 
violence predate the Middle East conflict and continue to be 
based in large part on century's old hatred and prejudice.
    The branding of Jews as scapegoats for both ancient and 
modern ills remains a powerful underlying factor in the anti-
Semitism hatred and violence that continues to manifest itself 
today. Less than a year ago we received a grim reminder of the 
potency of this hatred just blocks from where we now sit when a 
self-avowed white supremist and anti-semite gunned down a 
security guard at the entrance to our Holocaust Museum.
    Human Rights First advocated a comprehensive program of 
action, our 10-point plan which is included at the end of my 
written testimony for governments to combat anti-Semitism and 
other hate crimes. We have seen some limited progress over the 
last several years. For example, in public recognition of the 
problem, in monitoring and reporting, in enactment of hate 
crime laws, and in law enforcement. But high levels of anti-
Semitism violence persist and the political will to address 
them is still lacking in many countries.
    In our first report on this problem in 2002, we identified 
a serious data deficit on anti-Semitism offenses with most 
governments failing even to monitor and report on, let alone 
prosecute these crimes. Almost 10 years later most European 
governments still fall short of their commitments to monitor 
anti-Semitism offenses, which we think is an essential building 
block for a comprehensive response to the problem.
    While the threats facing the Jewish community today are 
deeply rooted and uniquely potent, they are also part of a 
rising tide of hate-motivated violence across Europe. We have 
reported an increase since 2005 in hate-motivated violence in 
many parts of Europe and North America perpetrated against 
members of a range of communities because of their ethnicity, 
religion, sexual orientation, immigrant status or other similar 
factors. The shared nature of the problem of hate-motivated 
violence underscores for us the need for governments to adopt 
comprehensive approaches to the full range of this violence. 
Likewise, in the nongovernmental sphere the shared nature of 
the problem calls for a coordinated response.
    The promise of work toward a shared solutions is perhaps 
best illustrated by the cross community cooperation that has 
emerged in recent years among civil society groups here in the 
United States and abroad. Here at home the Leadership 
Conference on Civil and Human Rights, of which Human Rights 
First is a member, is a good example of this unified effort. 
Working together with other leadership conference members, 
including the Anti-Defamation League, has enormously 
strengthened our capacity to raise awareness in the U.S. and 
internationally of the threat posed by anti-Semitic and other 
hate crimes, and to work with governments and regional and 
multilateral institutions for change. But, unfortunately, this 
type of cooperation is rare in the communities that are often 
working in isolation from each other.
    I have a number of recommendations in my written statement 
that are addressed at the United States Government, the 
Congress, the Executive Branch, multilateral institutions, and 
I would echo the recommendations of my colleagues on this panel 
with respect to the need for leadership by the United States in 
pressing the state of the OSCE, in particular, but all nations 
to live up to the commitments that they have already made to 
work against anti-Semitism and anti-Semitic hate violence and 
all forms of hate crimes.
    Thank you.
    [The prepared statement of Ms. Massimino 
follows:]Elisa Massimino 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you, and we will want to jump right 
into some questions here, and I think I again want to start 
with Rabbi Cooper because I know you are close on time. Do you 
have a few minutes to take some questions before you leave?
    Rabbi Cooper. Yes, please.
    Mr. Carnahan. Looking back at the issue of the thousands of 
hate sites on the Internet, to what extent can the U.S. 
Government or other governments combat these kind of sites 
while balancing the freedom of speech issues? What are some of 
the strategies that you think can be effective in addressing 
the issue?
    Rabbi Cooper. Well, I think we have a few things we can all 
agree upon. We don't want to assign on to rules or protocols 
written at the U.N. that would make Beijing or Havana happy. We 
want to make sure we protect our liberties, and also just from 
a practical technological point of view it is impossible to 
keep any idea off of the Internet. Just like we can't legislate 
hatred out of the real world, we won't be able to write 
protocols to remove it.
    Having said that, the notion that the answer to ``hate 
speech on line is more speech'' doesn't wash. It is a different 
kind of technology. We can spend millions of dollars and some 
of us have here on brilliant Web sites but you have to bring 
the people to look at it, and those who are both the targets of 
attacks and the young people who are targeted to believe the 
hatred are not necessarily going to come to your site.
    So on a practical basis how do we approach this? With 
democracies, we play it very simple. Whatever their rules of 
engagement are about where to limit speech, hate speech, we 
will cooperate with them, but that usually drives many of those 
Web sites to U.S. servers. That is really the bottom line, it 
has pretty much shredded in some ways the German anti-hate laws 
that they have had because you just go ahead and go offshore, 
if you will, to the United States.
    Our approach here, first and foremost, is to urge the 
Internet providers to live up to their own rules. You know, Mr. 
Chairman, each of us pushes that little gray button when we get 
a new software that says, ``I agree,'' I don't know if you have 
ever read what you agree with. I haven't either, but we have 
really researchers who have. We sign a contract when we push 
that button, and what we are saying, if the Internet is now a 
giant virtual mall, we want to make sure that the companies who 
provide that access don't give frontage property to the bigots 
and racists, and if they cross the line they should be thrown 
out.
    Facebook has been brought up a lot here. They are in a 
unique position. They are now at 400 million separate users and 
climbing worldwide. They have, I think, the right business plan 
and the rules in place, and kind of overwhelmed simply by 
just--it is hard to even wrap your mind around the kind of 
stuff that is being presented.
    I think that this committee does have a role. I believe if 
Congress will call in and convene another hearing, bring in the 
Internet community, bring back some of the--have a focus on the 
issue of human rights and the Internet, I believe, knowing 
quite a few of the players up in Silicon Valley, if they are 
given the opportunity to apply some of their collective genius 
to this problem and a little bit of a bully pulpit from this 
august body, we will get a lot further than by waiting for some 
magical answer to come down from a U.N. agency in Geneva.
    So, I think there is a lot to be done, and I think that 
having a constructive consortium of government, private 
industry, Internet users, and human rights NGOs could bring us 
to a better place.
    Mr. Carnahan. Rabbi, it is a great idea, great food for 
thought, and I am going to yield to the ranking member who has 
got limited time as well.
    Mr. Rohrabacher. Thank you very much, and because we have 
been through this today when the Egyptian Ambassador arrives in 
my office in 10 minutes I will make sure I bring it up. All 
right.
    A couple of idea and suggestions. First of all, in terms of 
the Internet of which we are talking about here, I think we do 
have to be very careful not to permit totalitarian governments 
to take advantage of systematic that we have set up in order to 
prevent this type of hatred from being used to suppress 
democratic movements, et cetera, and to cover their own 
misdeeds.
    Perhaps there could be a labeling that would be agreed upon 
by all of the Internet providers that would be passed on by and 
judged by certain people to say that this--the following has 
been judged to be untruthful and based on hatred or something 
like that, some kind of big thumbs down, and then that might be 
an official approval or stamp of disapproval that might have an 
impact. That is number one, and it would be a way to counter 
them saying, well, that, of course, was discounted by blah-
blah, you know, by whatever commission on truth and against 
hatred or whatever you want to call it. That is one idea.
    And to counter--look, what we are talking about here is an 
increase in anti-Semitism throughout the world, and there are 
ways to counter it by doing what I just suggested, or there are 
ways to be proactive in basically undermining basic concepts of 
anti-Semitism. One of the things that I have worked on and 
spent a lot of time working in my office with Representative 
Paul Brown who has a bill, H.R. 1175, in which I am basically 
the co-author of it, although I am the co-sponsor I am actually 
the co-author of it, I worked with Congressman Brown on this. 
And what it is is a resolution that suggests that the Ten 
Commandments should be recognized as a unifying force for 
Western Civilization, and if we have a positive approach toward 
making sure that we emphasize that--when you talk to the Judeo-
Christian heritage of our country, and of Western Civilization, 
that it really is the Judeo-Christian heritage and point that 
out, and this resolution, for example, I think would be very 
proactive in promoting the idea that--I think what it does is 
declare the first weekend of May to be a Ten Commandments 
weekend, that we all recognize this, and it might even be a way 
to reach all Muslims who I believe believe in the Ten 
Commandments as well. So that would be the type of positive 
approach where you are building up a recognition of something 
positive rather than just pointing out the negative. And anyone 
that can help promote that bill, for example, that would be a 
very positive thing to do, and it should be a bipartisan effort 
because there is only one Democrat on the bill right now but it 
should be a bipartisan effort. So I would hope that you might 
lobby some people in Congress and that would be a positive 
thing as well.
    So, Mr. Chairman, those are my responses to this today, and 
again what we have seen here and was verified by the last 
witness is that we have had this increase in Holocaust as we 
know, and we need to recognize that, and we need to counter it 
both in a positive way, but also in a way that we can actually 
condemn it, officially condemn it without actually restricting 
freedom of speech, and that the moral condemnation means a lot, 
and that is what this committee hearing is all about today, So 
I will when I got to the--yes, sir?
    Rabbi Baker. I didn't mean to interrupt you, Congressman, 
but since you said you were going to see the Egyptian 
Ambassador----
    Mr. Rohrabacher. Right.
    Rabbi Baker [continuing]. I wonder if I could share a 
thought.
    Mr. Rohrabacher. Please do and I will share that with him.
    Rabbi Baker. I was in Cairo a month ago. This was part of 
efforts going back, oh, 5 years, to press the Egyptian 
Government on the preservation of Jewish heritage in Egypt. For 
example, there are a dozen synagogues in Cairo, but probably 
only a few dozen Jews are left. To their credit, the Egyptians 
ultimately follow through. A month ago we had a re-dedication, 
the Egyptians have essentially restored, reconstructed the 
original yeshiva of Moses Maimonides, the most famous Jewish 
scholar who lived in Cairo in the Twelfth Century, and the 
adjacent synagogue which was built in the Nineteenth Century, a 
beautiful restoration.
    The fact is, however, no Egyptian official participated in 
the re-dedication event. In fact, press was physically turned 
away from the event. What is the reason? There is such a 
conflation between Jews and Israel that doing anything 
positive, even as political leaders saw there was value in 
maintaining or restoring this heritage, doing anything positive 
in this area of its Jewish history so unnerved them in terms of 
incurring criticism from their own population, or the political 
elites in their population, they did not want anybody to know.
    Mr. Rohrabacher. I will make sure that I, number one, 
praise them for allowing this to happen, but number two, 
mention that they really missed an opportunity to show--to 
reach out and show some leadership.
    One last note here and then I really do have to go, and I 
am sorry, I think it is really important for us to understand 
one point, and to make it clear to the people who are listening 
today that we are not saying that Israel is above criticism, 
and far too often what has happened is people are suggesting 
that any criticism of Israel is anti-Semitism and it is not. 
Israel, just like the United States, it is not anti-Americanism 
to criticize and to point out our failings, and America has 
failings too.
    So, we should make sure that we also discipline ourselves 
so that we know that some criticism, there are mistakes that 
have been made and people didn't live up to certain standards 
both in our country and every country, and that that type of 
criticism we should not--those people who are labeling that 
anti-Semitism are doing a disservice to those of us who are 
trying to get at some of the hard core stuff that Rabbi Cooper 
was showing us.
    Rabbi Cooper. May I make just one quick----
    Mr. Carnahan. Mr. Jacobson.
    Mr. Jacobson. I think your point is so vital. When we meet 
leaders, as others here today, they always raise the question, 
``Are you saying any criticism of Israel is anti-Semitis?'' I 
am always happy when they ask it because I know they are saying 
to themselves, ``The Jews are trying to stifle the legitimate 
criticism of Israel by claiming anti-Semitism.'' We make it 
clear, and I think that point that you made is terribly 
important for the credibility of all that we do. Of course not.
    Israel is a country like other countries. It has good 
policies and bad. We may disagree with the criticisms, but that 
doesn't make it anti-Semitism. What it really is when it is 
egregious or sometimes even less obvious or certain campaigns 
such as boycott campaigns, divestment campaigns which are only 
done against democratic Israel, this leads to legitimate 
questions as to the motivation behind it.
    But I couldn't agree with you more that we have to make 
clear that we are not talking about normal criticism whether 
one agrees with that or not.
    Rabbi Cooper. Mr. Chairman, if you would just give me----
    Mr. Carnahan. Yes, Rabbi Cooper.
    Rabbi Cooper. The good news is I actually do have to leave, 
so it will just be 30 seconds.
    There is one other part to the equation of anti-Semitism 
which technically could be brought up under OSCE because the 
U.S. is a member, but we shouldn't be under any 
misunderstanding that the issues are not just in Cairo or in 
Budapest. I have received letters from our fellow California 
constituents at UC Berkeley in the last 2 days who are facing 
physical intimidation for standing up for their rights to be 
heard on campus.
    Mr. Rohrabacher. UCI as well.
    Rabbi Cooper. UC Irvine, the UC system, so they are all 
saying that charity begins at home, it will be for another day 
and another time but we have an overflow of these problems 
created elsewhere that are playing out to the detriment of our 
kids, and of our educational systems right here in the U.S. 
Thank you, Mr. Chairman.
    Mr. Carnahan. Thank you. Rabbi, again thank you, and safe 
travels.
    I want to get one quick question in and then go to Mr. 
Smith, and I want to direct this to Rabbi Baker. As I mentioned 
in my earlier remarks many countries have made commitments at 
international conferences over the last decade, most recently 
last summer in Prague to resolve claims of families whose art 
was looted during the Holocaust. What steps can we take to 
countries who are in possession of such works that repudiate 
these commitments such as Spain as they have done with the 
claim by Claude Cassirer?
    Rabbi Baker. Yes. You know, I know Claude Cassirer very 
well. I have been taking up his issue whenever I have had the 
opportunity with Spanish officials. It is a terrible and very 
cynical example of the problem we face. Here you have a 
situation where there was no dispute this was a painting that 
hung in his grandmother's living room in Berlin, it was part of 
looted Nazi art. He was raised by his grandmother. He remembers 
that painting. When it ultimately was discovered to exist, it 
was, as it is now, a part of the Thyssen Museum in Madrid.
    When pressed, the Spanish Government, as you said, they 
were part of the signatories to the Terezin Declaration, they 
were also here in Washington in 1998 when there was a set of 
principles that were adopted on looted art. At first they said, 
well, this is a private museum; therefore the government 
doesn't have a role to play.
    When the Cassirer family finding no alternative to trying 
to reach some negotiation tried to go to court in this country 
suddenly this was no longer a private museum, it was a 
government museum and they were appealing to the foreign 
sovereignty law to prevent this suit from going forward.
    Now the Spanish Government or the cultural ministry is 
saying, well, Claude Cassirer's grandmother was paid 
compensation by Germany. In fact, Germany did make payments, 
indemnification payments for losses under the Nazis. Usually 
they were a small percentage of what was the real value, but 
even Germany today would say if the painting is there and can 
be returned, which a German institution would do, then whatever 
payment was made in the past would simply be repaid, but the 
actual object that was looted would be returned.
    So, it is a very cynical argument that has come from Spain. 
I last addressed it to the Foreign Minister in June last year, 
and also to the deputy minister of culture, but I have to say I 
am pleased you have raised it because I think only will there, 
I think, be a positive resolution--again it will continue 
through the U.S. courts, it is still a possibility that it will 
be allowed. The lower court said they should be allowed to 
bring suit. A panel in the Appeals Court upheld that. Now the 
full Appeals Court is hearing it. But I think Spanish officials 
need to hear that it is outrageous and to hear that from you 
and other Members of Congress.
    I do believe there are elements in the Spanish Government, 
it is not monolithic, that would like to see this resolved, but 
I think the word needs to get beyond the foreign ministry into 
the cultural ministry and elsewhere, but I am pleased you 
raised this issue because it is a terrible and sad case. Mr. 
Cassirer is, I believe, 89 years old now, and one really just 
fears that he is not going to see this resolved in his 
lifetime.
    Mr. Carnahan. I appreciate your work on that, and I think 
it is an important issue that needs to continue to be raised.
    I now want to recognize Mr. Smith for 5 minutes.
    Mr. Smith. Mr. Chairman, thank you again. Thank you for 
convening this very important hearing, and, frankly, this panel 
is made up of extraordinary men and women who are not just 
experts but highly effective activists who have made the 
difference in mitigating anti-Semitism. It would be much worse 
than it is today had it not been for your work over these many 
years and even decades.
    I also want to thank you for your clarity, your wisdom, 
your passion, your leadership, another wake up call to Congress 
that we need to redouble our efforts, and today your patience.
    Special Envoy Rosenthal earlier spoke of how her work is 
being integrated into the State Department work, and while 
mainstreaming I think can be a good thing, there is a flip-side 
to that coin, and we have seen it at the OSCE, Rabbi Baker, 
perhaps you more than anyone else, where it gets subsumed into 
everything else and loses that--or becomes blunt and loses that 
sharp edge that it must have.
    I am wondering if you could speak to the issue of the 
office not having dedicated staff. Do you think we should push 
to try to reverse that? Frankly, I think we should. Rather than 
having other people within the Department of State as, you 
know, people that are go-to, but the special envoy can only do 
so much as one person. I do think she needs other people 
working for her and with her.
    I would ask you if you could touch on how well the office 
is monitoring broadcasts I mentioned earlier, even Rabbi Baker 
and Mr. Jacobson and others. When we were in London there were 
some broadcasts that some watched on satellite television that 
were filled with anti-Semitism hate. It is routine, but are we 
capturing it at the office or do we just wait occasionally for 
someone to bring it forward? I think that is important, and do 
we have the capability at the office? Maybe there needs to be 
additional appropriation to make sure that they can capture 
that data so we know what we are really dealing with.
    Let me ask you also to speak, if you would, on south of the 
border anti-Semitism. Several years ago I met with Edwardo 
Elstain, and Argentine Jew who lost--he was kidnapped, he was 
tortured, and lost his business. He has been trying for 38 
years to reclaim it. I have raised the issue again and again 
with our own Government. I have raised it with the Argentine 
Government. Still he has not been able to receive his 
confiscated property.
    But last August I, along with Jonathan Mann, and we have 
spoken about him today, with our interparliamentary group, put 
together a trip to go to Venezuela to meet with the Jewish 
community there and then hopefully to meet with Chavez's 
people, maybe Chavez himself, to raise the issue of anti-
Semitism and especially in light of Ahmadinejad's ever-
closening ties there. I would say for the record that I was 
profoundly disappointed when our own committee would not 
authorize my travel even though I had asked several members on 
the Democrat side to travel with me. We were declined. Jonathan 
Mann ended up not going, and I wanted to go on my own dime, 
frankly, but I knew I couldn't get State Department buy-in to 
get me the meetings that both he and I and our small delegation 
of staff wanted to have with the Chavez government. So that was 
an opportunity lost, but hopefully we can put together a trip 
in the future.
    I asked Congressman Klein and Engel, they could not make 
it. You might recall Chairman Engel had a back problem so he 
really could not make it for reasons of heat. But it was a 
missed opportunity because that problem there is festering and 
we all know Chavez is spreading his ill will all over Central 
and South America, and with it comes anti-Semitism. So I am 
wondering if you might speak to that concern that you might 
have with regards to countries south of the border.
    Finally, two last things very briefly on the Internet. I 
don't believe that our First Amendment rights are in any way 
put in jeopardy and First Amendment free speech rights are 
injured in any way, shape or form when efforts are taken to 
take down these anti-Semitism Web sites that are reaching young 
and impressionable minds, and those of the neo-Nazi genre and 
others who then take Holocaust denial as if it were a fact when 
it is an absolute like. And I am wondering your thoughts on 
that.
    I know Rabbi Cooper's. He and I have had that conversation, 
but again I don't think the First Amendment is in any way 
violated when we move, and even as a government not to mention 
what could be done by Facebook and others unilaterally by 
themselves.
    And on the academics issue, Kirk Weisgetten at one of our 
meetings who held the position that Rabbi Baker now holds, 
brought together a group of academics from Germany and it was 
very insightful, Mr. Chairman, to hear how the 
institutionalization of anti-semiticade is alive and well and 
thriving in many of our universities and colleges throughout 
Germany, United States, and the world.
    I don't think we have spent enough time on that issue; that 
somehow it passes for academic freedom to hold views regarding 
Jews that are antithetical to anything that we hold dear, and 
that is tolerance and respect, and it seems to pass it that 
somehow it is okay. And those academics form Germany brought 
that out, and I thought in a very profound way at one of our 
meetings, so the academic situation, if you could touch on 
that. Thank you.
    Rabbi Baker. Can I respond first? I will try to be quick 
and touch on a couple of those things.
    By the way, with regard to the special envoy, I do not 
think that this office needs to be in a position to play a 
first-hand role in collecting and monitoring data and 
information. Many of our organizations have been doing that. 
Our information is available. There are others in Europe, in 
Israel that can as well. I think the real question is what kind 
of political force can this envoy, can this office make. I 
think that Hannah Rosenthal is new to this position, but she 
brings a lot of--clearly--commitment and enthusiasm and 
personal dedication. I hope that she will find a State 
Department that is open.
    To me the danger is for this to be--pardon the term--
``ghettoized.'' We have an office over here that deals with 
this issue bit it is left separately. Will this be taken up at 
a high level at bilateral meetings by the Secretary or her 
deputies? I think that is the question, and the degree to which 
the special envoy can push inside for that will be a measure of 
her success.
    I think if we recall that the bill that created that office 
also called for this first report, an international report on 
anti-Semitism. There was something very powerful in a U.S. 
Government report that indicated country by country the status 
of the situation, and I am sure Ken Jacobson recalls or had the 
experience, I know I did, of being in different countries. This 
report was read very carefully, at least that section in that 
country. Usually the U.S. Ambassador was called in. They were 
concerned about it.
    We have not done that. I don't know whether this office 
will think about doing it, and maybe that would require more 
staff, but I think it is something to be considered rather than 
having it within a larger, as you say as we saw in the OSCE, 
subsumed in a human rights report or international religious 
freedom report, something that holds it out specifically.
    My only other comment will be on Latin America, on 
Venezuela. I think we all know Venezuela is a very, very 
serious problem. At our annual meeting here in Washington in 2 
weeks we will have 25 Jewish leaders from Latin America, and we 
will have Jewish community leaders from Venezuela. Their 
stories are wrenching. I mean, because here you have--it is not 
simply a question of popular attitudes, but you have a 
political leader that is essentially making anti-Semitism a 
piece of his agenda and he is a very aggressive figure.
    The degree to which you directly or with your colleagues in 
other countries can try and put some pressure, the United 
States may not have much leverage on Venezuela, but at least to 
address this would surely be welcomed. Thank you.
    Mr. Carnahan. Mr. Jacobson?
    Mr. Jacobson. I was going to make a similar comment about 
the envoy's office. It seems to me that the single biggest step 
taken was exactly this kind of coverage in the State 
Department's human rights report on the subject of anti-
Semitism. I think both symbolically and very practically that 
appearance at that initial stage was remarkable, and to me that 
would be the major step forward, and that again as Andy 
suggested could involve staff. I don't know exactly. It clearly 
takes a lot of hands-on work, but it can be done and I think 
knowing that that can be done has already an impact on anti-
Semitism around the world, so I would echo Andy's comments 
about that.
    You raised a lot of subjects--let me just take a second 
about the academic world. There is no doubt that the fear that 
some of us have that American universities will go the way of 
Europe. I remember we had a meeting with the Israeli Ambassador 
to Great Britain a few months back and he said it is an ironic 
situation that Israel's situation is a situation of Jews 
operating very well in West European countries at the top 
level. In other words, if you look at Gordon Brown, you look at 
Sarkozy, you look at Angela Merkel, you look at Berlusconi, you 
look at all of them are not only friends of Israel but people 
have spoken out on the subject of anti-Semitism.
    When you go below that to the bureaucracies, to the 
intellectuals, to the nongovernmental organizations, to the 
universities, you find not only is Israel's image presented in 
a very negative way, but this has a real impact on attitudes 
toward Jews on the street as well.
    So this is a great thing we have to worry about. I don't 
think America is anywhere close to that even though we have 
examples of that. But I agree with you, we need to start 
addressing that problem in a more serious way before it ever 
gets to the point, and I think it is the job of Congress, I 
think it is the job of the administration, I think it is a job 
of nongovernmental institutions, so I couldn't agree with you 
more.
    Venezuela Andy spoke to. We also have issued a number of 
reports. The key for our working with Jewish communities, 
whether it is in Venezuela or Iran or Argentina or whatever, 
historically has always been to be in consultation with those 
communities because, as much as we care deeply, they have to 
live with the consequences of what we do here. We want to make 
sure we are on the same wavelength. Sometimes the communities 
feel so endangered that they can't really express their true 
feelings, and we have to take that into consideration. That has 
happened in the Soviet Union as we remember all those years, so 
we have to weigh and balance that. But I agree with you, that 
is one of the great concerns.
    The last point on the Internet; we take very seriously 
First Amendment issues, so I want to just state that for the 
record for us at ADL. We are the American representative of an 
international group called INACH, the International Network 
Against Cyber Hate, and most of the coordinating groups are 
European and they say to us, you Americans are crazy. You know, 
you have this First Amendment, and we kick them off our sites 
by our hate speech lawyers, and then the go to American sites. 
What are we going to do about you?
    We say, well, we value the First Amendment, but we also 
agree, and I also agreed with Hannah Rosenthal's comment that 
you fight bad speech with good speech. That is a basic ADL 
concept for the world at large. For the Internet, it is a very 
different proposition, so we know you have to do more.
    We have been working with Google, with Microsoft, with many 
of them to, first of all, get their attention to ensure this is 
a serious issue for them, and you cannot simply avoid it by 
talking about the First Amendment, which we all support. You 
have to work out serious programs, whether it is labeling, 
whether it is rules of the road, enforcing rules of the road, 
and I think we have gotten their attention. We have had meeting 
with them in the west coast, and at least they know that it is 
an issue for them.
    So I don't have simple answers because the First Amendment 
issues are profound issues for us. We tried a hate filter out 
once for parents, at least to protect the Web they have for 
pornography. It did not take off the first time, but that may 
be another way to go, which is in the First Amendment, 
protecting children who are the main ones exposed to this hate.
    So I appreciate you raising all these comments, and I think 
for many of us these are priorities as well.
    Ms. Massimino. I just had one quick thought on the capacity 
question that you raised, Congressman Smith----
    Mr. Smith. Yes.
    Ms. Massimino [continuing]. Because I do think it is an 
important one. There is no question in my mind that Hannah 
Rosenthal brings enormous energy to this position, and that she 
has the competence of senior leaders of the State Department, 
which is a good thing.
    We are going to be watching very closely her capacity to 
effectively deliver some concrete results and I think we should 
judge the need for greater capacity on whether or not she is 
able to achieve that through her work.
    You have heard, I think, several people mention this high-
level review conference in Kazakhstan in June. If there is 
high-level participation by the United States in that 
conference, that will be a good sign.
    I also think that we should look to sort of the whole of 
government approach on anti-Semitism. It is not just the State 
Department. I think there is a lot that the FBI, the Department 
of Justice can do in terms of technical assistance, and they 
are doing some of that now, but I think there is a lot more 
they can do to help investigation and prosecution of hate 
crime.
    Then, as I mentioned in my testimony, the importance of, 
you know, the degree to which monitoring really, and 
information comes from people who are close to the ground, but 
greater funding for civil society groups who are both doing the 
monitoring and working together across community to advance 
solutions here I think is something else that we should be 
pushing. Thanks.
    Mr. Carnahan. Thank you. I wanted to, I guess, ask a 
broader question for the panel. We heard several references 
today to 2009 being one of the worst years in terms of anti-
Semitic activity. I guess my question is, do digging into the 
reasons that you believe account for that, is this more of a 
spike in this activity or do we see this more as a trend? So 
part of my question is direction, and I guess part of it is 
what do you see behind it, and we will start from----
    Mr. Jacobson. I will go first.
    Mr. Carnahan. Mr. Jacobson.
    Mr. Jacobson. I would suggest, Mr. Chairman, that it is 
both a spike and a trend. The spike factor, I think, in 2009 
particularly related to the war in Gaza. In the U.K. during the 
3 weeks of the war in Gaza, there were 220 anti-Semitic 
incidents, many of a violent kind many of them. In France 
during that period of time there were 113 incidents, and I 
would make clear that, in my view, it is not the cause of the 
incidents but the occasion for such anti-Semitic expressions.
    So I think there is an element of a spike, but going back 
to my comments and my earlier remarks I think that each time we 
have a spike and a spasm, and an occasion, whether it is the 
war in Lebanon, the war in Gaza, Intifada, the financial crisis 
in the world, which is another example, each time we have one 
more spike we allow that unpeeling that I referred to, the 
sense that, well, anti-Semitism is not beyond the pale, whether 
it is because a lot of time has passed, whether it is because 
all the attacks on Israel have made people more comfortable 
with it, whether it is the comparing of Jews or Israel to Nazis 
today, all of which create the spike turned into a trend I 
guess is the way I would put it, and in effect, I think we do 
have a trend.
    It is a very, very disturbing one, and as I said earlier my 
great concern is that those inhibitions, which have manifested 
themselves for 50-60 years around anti-Semitism, are 
disappearing. But to inhibit the expressions of anti-Semitism I 
feel they have been eviscerated to a large extent, and 
therefore my concern is that we will be heading into a period 
where this trend will increase rather than decrease. I think 
the leadership of the United States in this matter has been 
profound, and therefore I think all of us who have worked so 
closely with you understand that it is only the work that we do 
together that can really begin to inhibit such kind of a trend.
    Mr. Carnahan. Rabbi Baker.
    Rabbi Baker. Look, I think we know, at least if you are 
looking at reports on incidents, that the reason the numbers 
were so high in 2009 was the fact that the Gaza war triggered 
this, but I don't think that is particularly a reason to be 
sanguine even though the war is over and those numbers 
diminished during the latter part of 2009.
    If you keep in mind, in 2002, 2003, 2004, when we really 
saw a dramatic increase in France and in some other Western 
European countries, and governments at the time really wanted 
to deny this was anti-Semitism, and label it as somehow 
generated politically because of Middle East events. It took 
awhile before those forces would come together and at least 
acknowledge that whatever the politics were or whatever the 
events were in the Middle East they did not justify attacks on 
a school bus of Jewish kids in a Paris suburb, for example.
    So when you keep in mind that much work was done, I made 
reference to the Berlin declaration of the OSCE conference as 
one example of it, governments becoming mindful of this 
problem. What was depressing was when we had these issues 
triggering a new round of attacks in 2009, where were the 
people, where were the lessons that were supposedly learned 5 
years ago? I mean, where was the strong political voice 
speaking out and efforts to tamp these incidents down?
    I don't want to say there were no voices, but for the most 
part it did not emerge in the way we had hoped. So in that 
sense it was, I don't want to say trend or spike, but it was a 
recognition that we still had much more to do. And then when I 
look in the OSCE area, I think Eastern Europe is a different 
situation. I don't think events in the Middle East really have 
that much impact or in some cases even any impact on anti-
Semitism in these countries, but in many cases they didn't 
really deal with the Holocaust era past. They still have the 
old anti-Semitism in many cases unreconstructed, and these 
democracies are still rather fragile.
    So again if one looks at Hungary and the recent election, 
here we have a Jobbik Party, the party that emerged from 
nowhere 1.5 years ago, first in the European Parliament, and 
now in the Hungarian Parliament, an unembarrassed anti-Roma and 
anti-Semitic platform, essentially a party that grew out of a 
fascist-like Hungarian guard, a group of people dressing in the 
uniforms modeled after the fascist Arrow Cross, parading by 
torch light primarily in towns with a high Roma population. I 
mean, it is a terrible picture. So I think we see we have a lot 
of work to do in these areas as well.
    Mr. Carnahan. Thank you. Ms. Massimino.
    Ms. Massimino. Yes. I think we view this as a longer term 
upward trend in violence with some periodic spikes like the one 
we saw in 2009. But it is part of a larger trend of rising 
violence across the board, hate crime, and I think what that 
underscores for me is the need to invest in long-term 
solutions, really getting at, you know, going to communities 
and education, building the legal framework to go after 
perpetrators, building the structures like we have begun to do 
in the OSCE and in other government entities to create 
obligations to monitor and report so that we can better answer 
the question of whether this is a trend or a spike.
    I think the lesson that we take from this is that we really 
need to invest in longer term solutions across the board to 
deal with hate violence.
    Mr. Carnahan. Which is a great segue to my last question, 
and that is, you know, we mentioned the provisions in the 
Universal Declaration of Human Rights, also certainly there are 
provisions in the International Covenant on Civil and Political 
Rights. I guess we have several of these international 
covenants, agreements, principles that are out there, but to 
what extent are these incidents that we have talked about today 
have anti-Semitism being treated like international human 
rights violations in terms of the broader context?
    Ms. Massimino. Well, I think that that is part of what Ken 
was talking about, is that as much as the whole framework of 
international human rights standards and protections grew out 
of the horrors of World War II and the Holocaust, in 
particular, there has been an erosion in thinking about hate 
violence across the board but anti-Semitism hate violence in 
particular as a human rights violation. I think we have to 
reclaim that in order to kind of reinstitute, as Ken talked 
about, the shame of participating or condoning or remaining 
silent in the face of these violations. That is part of why we 
as a human rights organization that works on many different 
issues thought it was important to make this a priority in our 
work, to underscore the fact that this is not just disparate 
victims groups, the Roma work on--the violations against the 
Roma, the Muslims work on anti-Muslim violence, but to join 
together and identify this trend as a comprehensive one that 
needs comprehensive solutions, and one that really involves 
violations of very fundamental human rights. Governments needs 
to see it that way, and the U.S. has an opportunity to lead the 
way in that.
    Mr. Jacobson. Yes, I must say that we at ADL and others, I 
believe, really expressed appreciation to Human Rights First 
for doing those reports because it was unique in the human 
rights community, or at least in my understanding, in the sense 
of making anti-Semitism a priority as a human rights issue. It 
should be a priority for the human rights community, and it has 
not been, and I think part of the importance of this hearing is 
to make that very point; that not only is anti-Semitism a 
threat to Jews, it is threat to human rights of the world, and 
anyone who is serious about human rights and doesn't take up 
the issue of global anti-Semitism today, particularly because 
of the origins of the human rights international body of law, 
is not really contributing to human rights around the world.
    Rabbi Baker. I would only add that I think the very way in 
and reason we are able to get this issue addressed at the OSCE 
and see the evolution in the attention it has received is 
precisely the recognition that this is a human rights issue. So 
I think it is a reminder of how when we bring that forward it 
can have very pragmatic, tangible, and even positive results.
    Mr. Carnahan. Thank you. I want to recognize----
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Carnahan [continuing]. My colleague, Mr. Smith, for 
some final questions.
    Mr. Smith. Just one really. And if I could you have 
mentioned the importance like at the OSCE, Rabbi Baker, of 
anti-Semitism finally being treated like a human rights issue. 
How would each of you rate the work of the Human Rights 
Council, especially now that we have a seat at the council, I 
have met personally with a lot of the ambassadors from both the 
Latin countries and from the African countries specifically on 
this obsession of the Human Rights Council to focus on Israel, 
Israel, Israel. It is not unlike, as we all know, the Human 
Rights Commission that this was supposed to be the reform and 
the replacement reform, it certainly has not panned out that 
way. How would you rate that, and what would be your 
recommendations to us and the Executive Branch on the Human 
Rights Council?
    Mr. Jacobson. Well, I would rate a bad ``F'' of the Human 
Rights Council, but that is not coming to a definite conclusion 
about the policy of this administration concerning 
participation. I would say that they need to take into 
consideration that their first experience with the Human Rights 
Council and American participation has been a very bad one, in 
my view, and it has been a failure, but I am not coming to the 
conclusion that it automatically has to remain that way.
    I think there needs to be a reassessment of the kind of 
role that America plays and eventually you may have to question 
the role at all, but I think at least the experience of this 
last year, year and a half or however long we have now been 
participating, should say, you know, it has not really worked 
the way we have done it so far. We ought to take a look at 
other ways because the truth is some people would argue that 
the Human Rights Council has even been worse than the Human 
Rights Commission.
    We could have a discussion about that, but it surely has 
not been an improvement. So I would say a rating for the Human 
Rights Council a sure ``F.'' The question of the American role, 
I am not dismissing. There is a good argument to say that we 
should be there and have an impact, and I think you could make 
that argument, but the question is how are we going to go about 
doing it in a way that has been different over this first year, 
and I think that would be an important role for this committee 
to raise with members of the administration, not just to say 
you made a mistake by doing it, but saying what can we do so in 
a way it will have a real impact.
    Rabbi Baker. In a sense I am only echoing what Ken has 
said. I think we are all enormously disappointed with the Human 
Rights Council. It is perhaps no better than the commission, 
and its approach certainly vis-a-vis Israel is outrageous.
    What usefulness, effectiveness we have now that the U.S is 
engaged I think is still an open question. Engagement by itself 
in many areas doesn't automatically mean a change in policy on 
the other side. I don't think we would take issue with the 
principle that to be engaged could result in certain positive 
things, but I think everyone would say the best right now one 
can see is damage control, and there is a lot of damage to be 
controlled.
    Ms. Massimino. Well, we have a lot of problems with the 
Human Rights Council and one of them is its obsession with 
Israel, but there are many other problems too. Some states 
actively trying to underline the independence of the U.N. 
experts, the inability of the council to respond in real time 
to serious violations. There are a lot of problem with the 
council.
    That said we have been very supportive of the 
administration's attempts to reengage and to join the council. 
We don't think it can be improved from the outside, that is for 
sure. The question I think is still open whether it can be 
improved at all to the degree that will justify engagement. But 
now is a very important movement for the United States to be in 
there. There is going to be 5-year reviews, and a lot of the 
spoilers on the Human Rights Council are allies of the U.S. 
Government. So if we can have an impact, you know, now is the 
time to do that.
    I think that it is clear to us that better, stronger human 
rights machinery at the U.N. is strongly in the United States' 
interest, and in the world's interest. The world needs that. I 
think we are all looking, searching for some evidence of 
concrete improvement as a result of the engagement. I think it 
is going to be a very slow road toward that.
    But, you know, when I talk to my colleague human rights 
organizations around the world they largely welcome U.S. 
engagement there as a voice to push back on these governments 
that many of my friends are trying to operate in. So I think 
for that reason alone it is useful, but I hope that when we are 
looking at this 2-3 years down the road we have some more 
actual victories to celebrate.
    Mr. Carnahan. I think that hopeful attitude is a good one, 
and I, too, am a strong proponent of engagement. We have not 
seen all the results we would like yet but we are hopeful and 
determined that we can figure out ways where we can.
    I just want to genuinely thank all of you for your time, 
for your expertise, and especially in this long afternoon for 
your patience. We really appreciate it. And I think some of the 
comments here today are going to be very useful to us in going 
forward with generating some additional ideas. I think the talk 
about the lost inhibitions that are out there I think also have 
some interesting coincidence with kind of lost inhibitions with 
people and what they do on the Internet generally, I think 
certainly we need to look at strategies there.
    In terms of the broader approach to looking at human 
rights, and all minority groups, I think there is a certain 
power in that collective sense of looking out for those that 
are being really discriminated again.
    So, again, really appreciate what you all have done here 
today, your time. We definitely look forward to working with 
you in the future. Take care. We are adjourned.
    [Whereupon, at 6:09 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
